<html>
<title> - [H.A.S.C. No. 112-67] ARMY RESERVE, ARMY NATIONAL GUARD AND AIR NATIONAL GUARD READINESS, TRAINING AND OPERATIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 112-67] 

  ARMY RESERVE, ARMY NATIONAL GUARD AND AIR NATIONAL GUARD READINESS, 
                        TRAINING AND OPERATIONS 

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 21, 2011

                                     
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

70-783 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 































                       SUBCOMMITTEE ON READINESS

                  J. RANDY FORBES, Virginia, Chairman
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     SILVESTRE REYES, Texas
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
FRANK A. LoBIONDO, New Jersey        DAVE LOEBSACK, Iowa
CHRIS GIBSON, New York               GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             LARRY KISSELL, North Carolina
BOBBY SCHILLING, Illinois            BILL OWENS, New York
JON RUNYAN, New Jersey               TIM RYAN, Ohio
TIM GRIFFIN, Arkansas                COLLEEN HANABUSA, Hawaii
STEVEN PALAZZO, Mississippi
MARTHA ROBY, Alabama
                Cathy Garman, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                    Nicholas Rodman, Staff Assistant




























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, September 21, 2011, Army Reserve, Army National Guard 
  and Air National Guard Readiness, Training and Operations......     1

Appendix:

Wednesday, September 21, 2011....................................    39
                              ----------                              

                     WEDNESDAY, SEPTEMBER 21, 2011
  ARMY RESERVE, ARMY NATIONAL GUARD AND AIR NATIONAL GUARD READINESS, 
                        TRAINING AND OPERATIONS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     3
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Carpenter, MG Raymond W., USA, Acting Director, Army National 
  Guard..........................................................    10
Stultz, LTG Jack C., USA, Chief, U.S. Army Reserve...............     5
Wyatt, Lt Gen Harry M., III, USAF, Director, Air National Guard..     8

                                APPENDIX

Prepared Statements:

    Bordallo, Hon. Madeleine Z...................................    46
    Carpenter, MG Raymond W......................................    92
    Forbes, Hon. J. Randy........................................    43
    Stultz, LTG Jack C...........................................    49
    Wyatt, Lt Gen Harry M........................................    82

Documents Submitted for the Record:

    Charts submitted by LTG Jack C. Stultz.......................   123

Witness Responses to Questions Asked During the Hearing:

    Mr. Reyes....................................................   127

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................   131
    Mr. Palazzo..................................................   136
    Mr. Scott....................................................   134
  ARMY RESERVE, ARMY NATIONAL GUARD AND AIR NATIONAL GUARD READINESS, 
                        TRAINING AND OPERATIONS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                     Washington, DC, Wednesday, September 21, 2011.
    The subcommittee met, pursuant to call, at 1:00 p.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Forbes. Well, good afternoon. And I would like to 
welcome all of our members and our distinguished panel of 
experts to today's hearing that will focus on the training and 
operations tempo for our Army Reserve and our Guard and Air 
Guard Components.
    Just 10 days ago, we marked the 10th Anniversary of the 
September 11, 2001, terrorist attacks on our homeland. That 
day, as we all know, literally changed our world, and led us 
into a long-term global war on terrorism, a fight where our 
reservists and our National Guard members are full partners. In 
the intervening 10 years, our Reserve Components have been 
stretched thin as they have been called upon to provide many of 
the enabling capabilities for the Active Duty Forces in 
Operation Iraqi Freedom, New Dawn and Operation Enduring 
Freedom.
    They provide support, such as intelligence gathering, 
airlift, close air support and security forces. At the same 
time, the National Guard still must fulfill their traditional 
mission of supporting the states during emergencies such as the 
recent flooding and fires. There is no walking away from either 
mission.
    Their significant combat support role in Iraq and 
Afghanistan makes it clear that we cannot go to the fight 
without our Reserve Components. According to the Department of 
Defense's recent study, the ``Future Role of the Reserve 
Component,'' the Reserve Component is an irreplaceable and 
cost-effective element of overall Department of Defense 
capability.
    The report specifically stated, ``Unless we had chosen to 
dramatically increase the size of the active components, our 
domestic security and global operations since September 11, 
2001 could not have been executed without the activation of 
hundreds of thousands of trained reserve component personnel.''
    Juxtapose this reliance on our Reserve Components against 
the backdrop of large U.S. force structure reductions in the 
$400 billion to $900 billion in defense cuts proposed over the 
past several months, and you can see how current challenges can 
grow to become significant problems. For the Army Reserves and 
Guard and the Air Guard, their ability to take on additional 
missions that require significant military support will be 
severely strained if the force structure in budget era 
reductions of the magnitude being discussed take effect. Even 
fulfilling their steady-state missions could be severely 
impacted.
    For example, let us look at just the Army for a minute. As 
was noted in our July hearing, general readiness indicators 
have gradually improved across the Army Active and Reserve 
Components over the past year. However, significant equipment 
challenges remain. While deployed units report high levels of 
equipment readiness, many home station and Reserve units report 
significant shortages of key items needed to fulfill their 
assigned missions and to conduct full-spectrum training.
    Anticipated budgetary reductions will further challenge 
this trend and the Army's ability to simultaneously provide 
trained and ready forces for ongoing operations and other 
possible future commitments and contingencies. This will be 
particularly true as the Army has changed its role.
    During the Cold War, the Army Reserve Components were 
considered strategic Reserves, which meant that only very 
limited training was done during their one weekend a month, two 
weeks a year, duty time. Units were not funded for significant 
training and had limited equipment sets.
    In theory, these units would have significant time after 
mobilization to get up-to-date equipment and conduct extensive 
training. They would then deploy for the duration of the 
conflict, rotate back home afterwards and return to their 
strategic Reserve status. However, in the past 10 years, the 
Reserve Components have become more operational, which requires 
more training before mobilization and involves a reset training 
period upon a units return from theatre. It also requires 
substantial additional resources to enable more training prior 
to a unit's formal mobilization.
    But is this model sustainable? I hope our witnesses will 
answer that question, especially as we are facing significant 
budgetary challenges. Since 1999, the overall Army Reserve O&M 
[Operations and Maintenance] funding almost tripled, but I 
worry whether we will be able to support such growth.
    With regard to the Air National Guard, one of their 
important missions is protecting the homeland through the Air 
Sovereignty Alert [ASA]. This mission has not been without its 
challenges, primarily because it was not adequately resourced, 
programmed or budgeted for by the Active Air Force.
    Also, unlike the cold war era when Air Force units were 
assigned to dedicated air defense units, the units that perform 
ASA operations today are part of the Air Force's total force 
and deploy overseas to support military operations. This can 
cause significant challenges for those Air Guard ASA units that 
must train for their primary contingency operations support 
missions, while simultaneously training and manning their ASA 
mission.
    When an ASA Guard unit is deployed overseas, there is 
tension in how it also will meet its ASA mission, which is 
often accomplished by transferring personnel and equipment from 
non-deployed units to fill shortfalls. Here again, I hope our 
witnesses will help us understand the resources needed to 
maintain these domestic missions at a time when we face 
diminishing budgets.
    Joining us today to discuss the challenges for resources, 
training and budget are three distinguished individuals. They 
have served their country well. We are very privileged to have 
them here today to provide their expertise, knowledge and 
counsel to us.
    First, we have Lieutenant General Jack C. Stultz, the 
commanding general of the United States Army Reserve Command. 
General, thank you for being here. We also have Lieutenant 
General Harry M. Wyatt III, the director of the Air National 
Guard. And General, we thank you. And Major General Raymond W. 
Carpenter, the acting director of the Army National Guard. 
General, thanks for all that you do and for your time this 
afternoon.
    I now recognize the ranking member, Ms. Bordallo, for any 
remarks she may have.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 43.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman, and good 
afternoon, gentlemen.
    Today, we continue our discussion on the overall readiness 
of our Armed Forces. We will hear from the directors of the 
Army and the Air National Guard, as well as General Stultz from 
the Army Reserve. And we look forward to the testimony from our 
witnesses.
    As both Generals Wyatt and Carpenter know, I am indeed very 
proud that the Guam National Guard has the highest membership 
per capita of any National Guard in this country. And I think 
that is a real testament to the level of commitment and respect 
that our men and women on Guam have for our Nation and the 
National Guard.
    The last decade of war and conflict has required our 
National Guard and Reserves to transform from a strategic 
Reserve to an operational force. Beginning on September 11, 
2001, and continuing through today, our Air National Guard 
began flying combat air patrol missions over our cities and our 
most important landmarks. Days later, we saw the Army National 
Guard mobilize to provide security at airports throughout the 
Nation. Mission requirements expanded with the beginning of 
rotations to Afghanistan and then Iraq and other areas.
    Our National Guard and our Reserves have answered every 
call to duty, and their support for our Nation has been 
invaluable. However, the roles and the missions fulfilled by 
the National Guard and Reserves have required greater resources 
to meet their increased training, equipment and manning costs. 
And the Nation's budget challenges will only amplify the 
difficulty of maintaining an operational National Guard and 
Reserve.
    Over the past few years, this committee has taken 
significant steps to address critical shortfalls in dual-line 
equipment needs through the National Guard and Reserve 
Equipment Account. However, the Army National Guard's goal is 
to maintain 80 percent of critical dual-use equipment on hand 
at any one time. How will this be achieved in austere budget 
times?
    Also, with the eventual drawdown of end strength in the 
Army, it is important for our witnesses to address what impact 
this may have on the rebalancing of missions and skill sets 
within the National Guard and the Reserves. What impact might 
this have on the readiness of these forces? This committee has 
also worked to ensure appropriate funding is authorized for 
increased training requirements due to continuing high 
operational tempo in Iraq, and especially Afghanistan.
    In the Army Reserve alone, operation and maintenance costs 
have increased from $1.4 billion in fiscal year 1999 to a 
requested $3.1 billion in fiscal year 2012. Additional 
investments in the operation and maintenance accounts will be 
needed to support a home station training concept.
    Such efforts are important toward ensuring the continued 
accessibility of the National Guard and Reserves. But there 
will be challenges in fully implementing this concept. So I 
hope the witnesses can discuss these challenges in their 
testimony today, and what risks would be associated with 
reduced funding for these purposes.
    I also remain seriously concerned about aviation assets to 
our National Guard. Our House-passed Fiscal Year 2012 Defense 
Authorization bill contains a prohibition on retirement of C-23 
Sherpa aircraft. What plan does the Army National Guard have to 
replace these aging aircraft? At one time, the C-27J joint 
cargo aircraft was the replacement. But former Defense 
Secretary Gates cut the buy to 38 planes, and shifted the 
program to the Air Force.
    How will we meet this equipment requirement in a difficult 
budget environment? Will homeland defense missions and airlift 
capability that is needed to support such missions be factored 
into replacing the C-23 Sherpas? I also remain concerned that 
the Department of Defense has not acknowledged the need to 
incorporate homeland defense mission requirements into certain 
planning assumptions. Further, I remain concerned that the 
National Guard Bureau has not taken a more prominent role in 
working with the various services and secretary-level agencies 
to better define these requirements.
    I hope that our witnesses, Mr. Chairman, can comment on 
when such requirements will be finalized and incorporated into 
the Department of Defense planning assumptions. If we do not 
have solid homeland defense requirements built into the 
planning process I fear we take significant risk in the 
readiness of our National Guard and Reserve to be appropriately 
trained and equipped to respond to these missions.
    And finally, this committee will closely examine future 
budgets to ensure that we do not hollow out our National Guard 
and our Reserves. To remain an operational force, we will need 
to see investment in the training and the equipment accounts in 
future years. We must always have a ready, a reliable and an 
accessible Reserve Component. And I look forward to the 
testimony of our witnesses.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Bordallo can be found in the 
Appendix on page 46.]
    Mr. Forbes. Thank you for those remarks, Madeleine. And as 
we discussed prior to the hearing, I asked unanimous consent 
that we dispense with the 5-minute rule for this hearing and 
depart from regular orders so that members may ask questions 
during the course of discussion. I think this will provide a 
roundtable type forum, and will enhance the dialogue on these 
very important issues. And without objection, so ordered.
    I also asked for unanimous consent that non-subcommittee 
members, if any, be allowed to participate in today's hearing 
after all subcommittee members have had an opportunity to ask 
questions. Is there any objection? Without objection, non-
subcommittee members will be recognized at the appropriate time 
for 5 minutes.
    Gentlemen, as we mentioned at the outset, we would like to, 
as a committee, first of all simply say thank you to each one 
of the three of you. Thank you for your service to our country, 
for the sacrifices that we know that each of the three of you 
have made. But also thank you to the men and women who serve 
under you, for the great job that they have done, for the 
sacrifices that we know they made for our country.
    Your written statements have been introduced. We will be 
introducing those to the record. You do not need to read those 
again, but we are welcome to hear them if you would like to.
    But what we would love to hear is just your opinions as to 
what you think this committee needs to know. The unfortunate 
thing is no good deed goes unpunished. And because you have 
done such a great job, the American people, many policymakers 
in Congress, will just assume you are going to continue to do 
that, regardless of the resources that we give you.
    Many of us fear that we have an enemy coming over the 
horizon that we have not seen in years and that is some deficit 
reduction cuts that perhaps could impact what you do for a long 
time to come. And so it is very important that we hear from you 
as to the impact you think these cuts could have on the men and 
women that you represent.
    So General Stultz, if it is okay with you we will start 
with you just because that is where you are seated in the great 
lineups. General.

 STATEMENT OF LTG JACK C. STULTZ, USA, CHIEF, U.S. ARMY RESERVE

    General Stultz. Chairman Forbes, Ms. Bordallo, other 
members, on behalf of the over 205,000 Army Reserve soldiers 
that I command, first and foremost let me say thank you for 
your enduring support. Support in terms of financial, but also 
support in terms just of moral support that you give our 
soldiers and our families as they continue to perform, as you 
indicated in a magnificent way.
    And I was just down in Florida on Monday for a segment with 
Fox and Friends. And just a little snippet, you know, in-
between their breaks, I had 140 soldiers with me there. And 
they cut to me and said, ``What would you like to say?'' And I 
just said, ``You know, these people sitting around me in 
uniform are a national treasure because it is a volunteer Army 
and they don't have to be here.''
    ``And yet, for some reason they continue to raise their 
hand over and over.'' And I said, ``There is Sergeant Dasher 
sitting right here in front of me. I just met him. He is a big, 
strapping E-7 and he has been to Iraq three times, 2003, 2006 
and 2010. And he said, `Sir, when you need me, I will go back 
again.' '' That is a national treasure.
    And so as you have indicated, it has cost more for us to 
become an operational force. But there is a reason for that, 
and there is a reason we have got to maintain that support. I 
brought along two charts just to illustrate why. The first 
chart here is, and I think you have a handout available to you, 
it demonstrates what we have done in terms of the force mix in 
our Army.
    [The chart referred to can be found in the Appendix on page 
123.]
    General Stultz. As we have grown the Army from a force of 
482,000 in the Active Army to 569,000 we really have not grown 
our Reserve Components very much. In the Army Reserve, we are 
still at 205,000. That is where we were pre 9/11. I think the 
National Guard was at 352,000. They are at 358,000 now in 
authorized end strength.
    So the growth has come in the Active Force, and that growth 
has come in greater combat capability with their great combat 
teams and greater aviation capability, with combat aviation, 
and other types of things.
    At the same time, we have shifted the combat service 
support more and more to the Reserve Components. And so between 
the National Guard and the Army Reserve, the chart illustrates 
that 80 percent of the transportation capability for the Army 
is now in the Guard and Reserve. Seventy-five percent of the 
engineer capability is in the Guard and Reserve.
    In the medical community, 75 percent, roughly, is in the 
Guard and Reserve. Civil Affairs, 85 percent. And it goes on 
and on. That is why the Army has become dependent on the 
Reserve Components is because we are no longer the Reserve. We 
are the Army. We are what the Army depends on for these kinds 
of capabilities. And yes, it does cost us more to keep those 
forces ready because we are utilizing them and we have got to 
train them and maintain them.
    But we cannot afford as the Army has to come down in end 
strength to cut any support for our Reserve Components because 
they are going to be even more dependent on the Reserve 
Components if they have to come down in end strength on the 
Active side. More of this capability is probably going to shift 
our way.
    And what we have to do is, we have to be good stewards of 
the dollars you give us. We have to be efficient and effective. 
And we in the Army Reserve have developed the training strategy 
that says, you know, we are going to take soldiers and put them 
in a 5-year rotational cycle. So in the fifth year, they deploy 
or they become available. And then they go back and reset and 
start training, and we gradually train them up so that we don't 
spend a lot of dollars until we are sure we are going to use 
them.
    But in that third and fourth year prior to deployment, we 
need some extra training days and we need to make sure we have 
got the right equipment to train on so they are prepared to go 
to war. Because the Army depends on them.
    And so my concern is just as you said, Mr. Chairman. As we 
are looking at some of these dramatic cuts that someone assumes 
we can just take the Reserve back to where it used to be prior 
to 9/11/2001. We can't. Because the Army is different today 
than it was 9/11/2001 in terms of the way they are structured 
and in terms of their dependence on the Army Reserve and the 
National Guard.
    Now the next chart, if I could, will illustrate my concern. 
I call this the ``dip chart,'' if you want to call it. But this 
indicates the end strength of the Army Reserve and how it has 
changed. But more importantly, it indicates how the Army 
Reserve has changed in terms of the composition of the force.
    [The chart referred to can be found in the Appendix on page 
124.]
    General Stultz. If you go back to 2002-2003 timeframe, we 
were at almost 215,000 of a 205,000 authorization, almost 
10,000 over strength. And then we went to war. And what we 
realized is we had a strategic force. We did not have a force 
that was prepared for war. We had soldiers in our force that 
were not competent to go to war, physically, mentally, and 
other means.
    We had soldiers in our force that said, ``This is not what 
I signed up for. It is time for me to leave.'' And a lot of 
times we gave them a medal, and said, ``Thanks for your 
service.''
    And that structure, or that end strength, went all the down 
to almost 185,000 by 2006, when I came aboard as chief of the 
Reserve. That didn't mean we just lost 30,000. Every year we 
were recruiting an additional 30,000 into the force. So you 
multiply several years of 30,000, plus the 30,000 reduction, 
and it is well over 100,000 soldiers we lost out of our force--
over 50 percent of our force.
    And then we started building back. And we built back with 
soldiers like Sergeant Dasher that I mentioned earlier, with 
soldiers who said, ``This is what I am signed up for. I want to 
go do something. I want to be something. I want something that 
is fulfilling.''
    And that is the heroes that we have today that is a 
national treasure. Those are those soldiers that stand there on 
Christmas Day with me in Baghdad with their hands raised, 
taking an oath of reenlistment to stay in the uniform, knowing 
that they are risking their lives every day they go into 
battle.
    We can't afford to lose that. The Army is dependent upon 
that. That is a national treasure. And my fear, if we start 
cutting the force, if we start cutting resources, that dip will 
occur. It will occur again as those soldiers who are in our 
force today say, ``I am not going back to a strategic 1-
weekend-in-a-month, 2 weeks in the summertime force. I want to 
be part of something.''
    What we owe our Nation is to maintain that investment that 
we have got because we know our Reserve Components are a 
tremendous return on investment in terms of what it actually 
costs for a soldier in the Reserve versus a soldier in the 
Active Army.
    We know that is a huge savings in terms of capability as 
long as you are confident it will be there when you need it and 
it will be ready when you need it. And we have got that today. 
We have got to maintain it because if we are going to have to 
cut spending in the total defense budget, I think the Reserve 
Components are going to become even more critical as a way of 
saving capability and spending less.
    And so my pledge to you is I will do everything I can to be 
as efficient, as cost-effective as I can. But I owe it to my 
soldiers to maintain their readiness, to give them the 
equipment they need to train on and the equipment they need to 
go to war, and to take care of their families while they are 
gone.
    So I will look forward to your questions, sir. But again, 
thank you for all of you for your support for us.
    [The prepared statement of General Stultz can be found in 
the Appendix on page 49.]
    Mr. Forbes. General, thank you. And we owe them the same 
thing and thank you for helping us provide that to them.
    General Wyatt.

  STATEMENT OF LT GEN HARRY M. WYATT III, USAF, DIRECTOR, AIR 
                         NATIONAL GUARD

    General Wyatt. Let me just say that it is an honor and 
privilege to be here with you today, and on behalf of the 
106,700 Air National Guardsmen that are representing our 
country so well.
    As we meet here today, there are over 6,289 Guard airmen 
deployed around the world in Iraq, Afghanistan, providing, for 
example, air logistic support to the National Science 
Foundation in Antarctica and Greenland, and helping to defend 
U.S. interests in every continent around the globe.
    In addition, 3,437 Air National Guard men and women are 
protecting our homeland, including protecting the sovereignty 
of American airspace. And then, Mr. Chairman, you and Ranking 
Member Bordallo both referenced the ASA mission. I learned just 
recently that the mission that I traditionally referred to as 
ASA is now referred to by NORAD [North American Aerospace 
Defense Command] as ACA, Aerospace Control Alert.
    So if I lapse back into an old vocabulary, please forgive 
me. They are one in the same, sir. So ASA, in my mind equates, 
to ACA. But these 3,437 Air National Guard airmen that are 
defending the homeland right now include not only those ASA-ACA 
folks, but assisting several authorities in the protection of 
life and property in the United States, flood control as we 
have recently seen here on the East Coast, tornado recovery 
efforts in the Midwest, and fire support in the southwest part 
of the country.
    Air Guard members are helping U.S. Customs and Border 
Patrol on the border as we speak. And so far, in regard to 
that, the mobile air firefighting system, the Air National 
Guard, has delivered over 360,000 gallons of fire retardant in 
support of the National Forest Service interagency help.
    When the air campaign of Operation Desert Storm began in 
January 1991--I am going to take you through just a really 
brief history of the percentage of support that the Air 
National Guard has given our United States Air Force--back in 
Operation Desert Storm, 1991, 11 percent of the U.S. Air Force 
aircraft that were flown in that operation were maintained by 
Air National Guard airmen.
    Fast forward to April 1993, when the U.S. Air Force was 
called upon to support NATO [North Atlantic Treaty 
Organization] in the campaign to protect civilians in Bosnia. 
Recall also that, as a byproduct of Operation Desert Storm, we 
were also doing Operation Northern Watch and Southern Watch 
over Iraq.
    Continuing to support national security requirements around 
the world at that point in time, the Air National Guard 
provided 45 percent of the deployed United States Air Force 
aircraft for Bosnia, Kosovo, Northern Watch, and Southern 
Watch, in addition to providing countless support operations 
around the globe.
    As demands upon the U.S. Air Force expanded beyond flight 
operations in Iraq and Afghanistan, the Air National Guard men 
and women were there providing medical assistance around the 
world. I had the privilege yesterday of attending the Air Force 
Association awards banquet. General Johns, representing Air 
Mobility Command, one of his units, his MAJCOM [Major Command] 
gained units, won an award for the medical assistance.
    And he summoned General Stenner and myself to the stand, to 
the awards stand, because he recognized that 94 percent of the 
United States Air Force medical capability resides in the 
Reserve Component. This is a dual-use capability, as Ranking 
Member Bordallo pointed out, that is also available to our 
governors.
    As you recall, Secretary Gates recently directed the 
National Guard to stand up 10 homeland response forces 
comprised of Army National Guard and Air National Guard 
members. They are about 556 strong. And one of the large pieces 
of that, on behalf of the Air National Guard, is this medical 
assistance, where we are able to deploy those skills that we 
have to support the warfighter overseas in support of our 
citizens here at home when we have a natural disaster or 
terrorist attack.
    And in addition to medical assistance, some of the other 
capabilities that we provide, non-flying, our explosive 
disposal experts, security forces, battlefield airmen, and 
other combat and support task. Today, Guard airmen are serving 
alongside our Air Force Joint Force and coalition partners 
around the world. I provide some of these statistics to 
emphasize that the men and women of today's Air National Guard 
are ready. And not only are they ready, but they are willing 
and, in fact, anxious to serve their Nation both here at home 
and abroad.
    As we look to the many challenges of this country ahead, my 
goal is to lay the foundations for an Air Force that has the 
capability and the capacity to meet tomorrow's challenges, 
within the constraints that we can foresee. I believe that the 
Air National Guard, as well as the Air Force Reserve, are a 
part of the solution. We have proven time and again to be 
ready, willing and accessible.
    Operation Odyssey Dawn, Operator Unified Protector, the 
aerial tanking refueling was done by 22 aircraft, 16 of which 
were Air National Guard. There was no mobilization authority, 
but over 800 Air National Guard's airmen deployed in support of 
that operation, without any mobilization authority--100 percent 
volunteers.
    After the Vietnam War, Secretary of Defense Melvin Laird 
created the Total Force Concept, realizing that by increasing 
reliance on the Reserve Components through improved equipment 
and increased training the Nation could maintain defense 
capability at a lower cost.
    That concept is even more valid today than it was back in 
1970. And your investment in the National Guard and Reserve 
Equipment Account has been a critical component to the Air 
National Guard as we increased our readiness through the last 
20 years. For example, without that investment our Block 30 F-
16s, which are the backbone of protecting America's skies, 
would have been irrelevant by now.
    The Air National Guard is a cost-effective, professional, 
ready airspace and cyberspace force. Based upon its traditional 
part-time professional workforce, and because we operate 
primarily from civilian airports and small community bases, we 
provide the cost-effectiveness that this country needs at this 
critical time.
    You have created the most the professional combat-ready 
force in the history of the Air National Guard. Today's Guard 
airmen understand that the Nation needs more of them than one 
weekend a month and 2 weeks in the summer. And they are ready 
and willing to answer the call. All they ask is that we 
continue to provide them with the equipment, the training and 
the resources they need to accomplish the mission.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Wyatt can be found in 
the Appendix on page 82.]
    Mr. Forbes. Thank you, General.
    General Carpenter.

  STATEMENT OF MG RAYMOND W. CARPENTER, USA, ACTING DIRECTOR, 
                      ARMY NATIONAL GUARD

    General Carpenter. Chairman Forbes, Ranking Member 
Bordallo, it is an honor and a privilege to be here today to 
represent the 360,000-plus Army Guard soldiers. Currently there 
are 39,485 soldiers mobilized, and more than half of our force 
has combat experience. The sacrifice of our soldiers, their 
families and employers has been tremendous, and they deserve 
our deepest gratitude.
    Looking back on the past decade, the Army National Guard 
has been there from the very beginning. The New York National 
Guard was among the first on the scene at the World Trade 
Center on
9/11, as was Maryland and Virginia in the days after the 
Pentagon was attacked.
    Beginning with the 9/11 response, the Army National Guard 
has continued to shoulder our responsibilities in the overseas 
fight in Afghanistan and Iraq, while simultaneously responding 
to events in the homeland, the largest of which was Hurricane 
Katrina.
    And the service of our Army National Guard continues. For 
example, the weekend of August 26 through the 29th past, the 
National Guard had more than 63,000 National Guardsmen on duty 
protecting this country at home and abroad. Over 47,500 
National Guardsmen were deployed in support of overseas 
contingency operations and partnership-building missions.
    Almost 10,000 members of the National Guard on that 
weekend, from 24 states, responded to Hurricane Irene. We 
staged three ground task forces, three air task forces, and we 
pre-staged them in anticipation of landfall for Hurricane 
Irene. Another 1,000 National Guardsmen provided security on 
our Nation's southwest borders. An additional 4,000 National 
Guardsmen responded to a range of domestic emergencies across 
this country.
    The experience of the past decade has transformed the Army 
National Guard to an operational force--``our national 
treasure,'' in the words of a recently-retired, four-star 
Active Duty general. As an operational force, the Army National 
Guard represents the best value for America. Force structure 
and military power can be sustained in the Army National Guard 
for a fraction of the regular cost. The Army National Guard is 
one-third of the total Army, but accounts for approximately 10 
percent of the total Army budget.
    Supporting capability in the Army National Guard makes good 
business sense. The Army National Guard could not have evolved 
into the operational force without the support of this 
committee and Congress. Our Nation has invested over $37 
billion in equipment for the Army National Guard in the past 6 
years. The delivery of that equipment has increased Army 
National Guard equipment on-hand rates for critical dual-use 
equipment by 14 percent.
    Because the Army Guard is a full partner with the Active 
Component, it is vital for the Guard to continue modernizing 
equipment. Modernization and interoperability are essential for 
training during the Army National Guard pre-mobilization 
periods, and critical for deployments.
    It is no secret that the Department of Defense and the Army 
are facing reduced funding. We in the Army Guard understand 
that, and have already set about garnering efficiencies and 
developing new strategies that will allow us to continue to 
meet our dual-mission responsibilities with less funding. Those 
two missions have required an Army National Guard of 360,000 
soldiers formed into 54 joint force headquarters, 8 combat 
divisions, 28 brigade combat teams, 8 combat aviation brigades, 
and over 70 enabling brigades during the past 10 years.
    We are reminded regularly that we live in a very dangerous 
and unpredictable world. And it seems like the predicted 100-
year natural disaster events are coming closer and closer 
together. We have built a capability to respond to the needs of 
our citizens at home and abroad. We ought to fully understand 
the risk associated with reducing that capability. Because, in 
the words of a combat commander in Afghanistan, ``Sometimes all 
it takes is all you have.''
    The Army National Guard is a force forward-deployed in the 
area of operation, the homeland. We have built great capacity 
in the National Guard by establishing forces specifically 
designed to deal with emergencies, disasters and potential 
terrorist attacks.
    Those units include Guard civil support teams, of which 
there are 57, 17 chemical-biological emergency response forces, 
10 homeland response forces. General Wyatt mentioned that we 
are in the process of building the last eight of those in this 
next fiscal year, and two domestic all-hazards response teams.
    By one estimate, 96 percent of the events that happen 
across our country are handled by local first responders, 
policemen, firemen and the National Guard. Only 4 percent 
require Federal support. It has taken years to build these 
organizations. We should not rush to reduce the size, structure 
or capability of the Army National Guard without significant 
analysis and thorough deliberation.
    I would like to specifically address a separate issue. And 
that issue is access to the Army National Guard and the Army 
Reserve in non-named contingencies. The Department of Defense 
requested a change in the statute section 12304 which would 
allow the Reserve Components to be involuntary called with 
prior coordination at the service-chief level, as well as the 
necessary budgetary authority to support the deployment.
    The Army National Guard and the adjutant generals are 
staunch advocates of the change in statute. We think that it 
will allow for the continued critical contributions of our 
soldiers and units in the effective use of soft power--that is, 
theater security and cooperation--in the hope of reducing the 
possibility of mobilized military response in the future.
    We think our soldiers, equipped with their battlefield 
experience and civilian skills as well as their strong desire 
to be used, can make meaningful contributions to their state 
and nation, are the right force at the right time. Without the 
change in statute, they will be denied the opportunity.
    In the end, we have asked for the Army National Guard's 
share of the budget reductions to be given to us, the Army 
Guard. Let us, the Army Guard, figure out where to pay the 
bill. Don't direct reductions in Guard brigade combat teams or 
end strength.
    In closing, the Army National Guard is battle-tested, and 
well-equipped for both of our missions. And this committee has 
been critical in building and sustaining the best manned, 
trained and equipped National Guard I have seen in my career. 
Truly a best value for America. I look forward to your 
questions.
    [The prepared statement of General Carpenter can be found 
in the Appendix on page 92.]
    Mr. Forbes. Thank you gentlemen. And we have got some 
individuals on this subcommittee who have a great deal of 
expertise when it comes to the Reserves and Guard, so we want 
to get to their questions. I am going to defer most of my 
questions until the end, but I do have two that I would like to 
just set up for you at the beginning.
    General Stultz, the chart that you have does not reflect 
what I think is just a tremendous story for the Reserve and 
Guard that you gentlemen have played in it. And that is, how 
you have changed kind of the overall complexion of the Reserve 
and the Guard units.
    As you mentioned, if you go back 15 years ago, maybe 20 
years ago, I know a lot of people you talked to as to why they 
served in the Reserve or the Guard it is because it was easy. I 
mean, you know, they would do their one weekend a month and 
their 2 weeks. And we heard that a lot. Even when we began the 
beginning of this last decade we heard that from some people.
    Something happened. You transformed that. And when most of 
us travel to Afghanistan and Iraq, we are trying to find those 
individuals now and we can't. When you go to anybody and say, 
``You know, here everybody says that you want to be home. How 
tough is it?'' They all look you in the eye and say, ``This is 
what we want to do. This is what we have signed up to do.''
    And so my question to all three of you, if you can help us 
with this is, why do men and women want to serve in the Reserve 
or the Guards today, you know, as opposed to the Active Duty? 
You have done just a wonderful job in recruiting top-flight 
people who are willing to pay those prices. What is it that 
draws them? And what risk do we have of losing that if we had 
these huge cuts?
    And one other thing. General Stultz, can you just clarify 
for me in the chart you gave me? As I look at this, when I look 
at the medical between the Reserve and the Guard, it looks like 
to me that 74 percent of all the medical for the Army is being 
provided by the Reserve and the Guard, and 79 percent of the 
transportation. I just want to make sure I am not misreading 
that, and when we state that, it is accurate.
    So, if all three of you would have at that.
    General Stultz. Yes, sir. With the question you just asked, 
the chart that I showed is the number of units in the Active 
and the Guard and in Reserve. And out of the total units in the 
medical force, 74 percent of them are in the Guard and Reserve. 
Out of the total units in the transportation force, 79 percent 
are now in the Guard and Reserve. So, it is the total number of 
units. So, it is that capability. Because that is what we 
deploy. We deploy units on the battlefield.
    With regard to your first question, you know that is one of 
the things I said. And as I meet with soldiers in Iraq, 
Afghanistan, I ask myself and I ask them a lot of times--
``Why?''
    You know, when you are sitting there across the table 
having dinner with Lieutenant [inaudible] several years ago--he 
is from California--and I said, ``So where did you go to 
school?'' And he said, ``Grad or undergrad?'' So, I said, 
``Okay, grad school.'' And he said, ``So I got my Ph.D. from 
MIT.''
    And I said, ``So what do you do? What did you major in?'' 
And he gave me this look like ``You are not going to understand 
this.'' And he proceeded to prove himself because he talked 
about thought patterns turning into speech patterns and the 
processes and the neurons. And I said, ``What do you do for a 
living?'' And he said, ``Sir, I develop artificial 
intelligence.'' And I said, ``What are you doing here?''
    And he said, ``Sir, I was in grad school at MIT when 9/11 
occurred, and I just felt compelled to serve my country. But I 
don't want to give up my civilian career and my education. I 
don't want to be a full-time soldier all the time. And the Army 
Reserve lets me do that. It lets me pursue my civilian goals, 
and also be part of something special, this brotherhood and 
sisterhood of men and women in uniform.''
    And I think that is part of the answer. It is this 
generation that we have got today that they are living the 
American dream, in some cases with good education, good jobs. 
But they just want to give back. But they don't want to give up 
what they have earned. And so the Reserve Component allows them 
to do that.
    And for our military, you put a Reserve soldier, Guard or 
Reserve, on the battlefield you put a force multiplier on the 
battlefield. Because they bring civilian education and skills, 
in a lot of cases, that the Active Army just can't develop.
    You know, when I am in Afghanistan, and I have a young 
sergeant come up to me and say, ``Hey, sir. I want to get my 
picture taken with you because I work at Procter & Gamble, 
too.'' And I said, ``Well, I retired from P&G when I took this 
job.'' And he said, ``I know, sir. But I want to get my picture 
taken with you.'' And I said, ``So what do you do at P&G?'' And 
he said, ``Sir, I am a scientist.'' And he says, ``What did you 
do?'' And I said, ``Don't worry about it.''
    I mean, that is the quality of soldiers that we have got in 
our force today, and we can't afford as a nation to lose them. 
That is that right side of that chart. That is those 
individuals that said, ``I just want to be part of something 
and give back to America, and still be a civilian career and 
education that I have got.''
    If we cut support to them it is not just going to be a blow 
to the Reserve, it is going to be a blow to this Nation. 
Because the talent and the quality we have in our force--and 
for one-third of the cost, in a lot of estimates of what it 
costs for a full-time soldier--what we get in return is 
remarkable.
    Mr. Forbes. Thank you, General.
    General Wyatt.
    General Wyatt. Chairman Forbes, a lot of the things that 
General Stultz indicated are true in the Air Guard, too. I 
think, broadly, patriotism. And I will link that to some of my 
other comments here. But patriotism, the ability and the 
privilege to serve alongside Americans that are of like ilk.
    I think the good feeling of joining an organization, a 
professional organization, that is trained to the same 
standards as our Active Duty brothers and sisters, an effective 
force, an opportunity to continue that service to country, the 
ability to live where they want to live and pursue the dreams 
that they want to pursue, both militarily and in their civilian 
lives.
    I am no different than any other Guardsman. But I served my 
first 6 years on active duty. I had always wanted to go to law 
school, but back in the Vietnam days I decided to join the Air 
Force, and I wanted to be a fighter pilot.
    And after I was a fighter pilot for about 6 years, that 
desire to get into law school came back, and I started checking 
out some programs. And the Air Force would send me to law 
school, but then I couldn't be a pilot anymore. I had to be a 
JAG [Judge Advocate General], and I wanted to be both. And the 
Air Guard offered me the opportunity to pursue both of my 
dreams.
    I continued being a fighter pilot. I continued to go to law 
school. I graduated, practiced law. One point in time, when I 
was the wing commander at Tulsa in the F-16 unit, I was also a 
state court trial judge. And I tell people that, and they say, 
``How do you do that?'' I say, ``The same way that all the 
other Air National Guardsmen do it. Because we want to, because 
we can, and that is what we want to do. We want to serve this 
country, but pursue our individual dreams, too.''
    And I think when you can join an organization that has 
transitioned from being a strategic Reserve, like the Air Guard 
was when I first joined, into an operational force where you 
can't tell the difference, you go into combat and everyone, 
Guard, Reserve and Active Component are trained at the same 
standard.
    You know, when you take a look at the contributions of that 
flight of four that took down al-Zarqawi in Iraq, it was Active 
Duty, Guard and Reserve. It was an Air National Guard targeting 
pod provided by Engria that spotted the guy and got him. That 
is how the total force works, and the Air National Guard gives 
our individuals that opportunity to make their contributions to 
the national defense in the way that they want.
    Thank you, sir.
    Mr. Forbes. Thank you, General.
    General Carpenter.
    General Carpenter. Chairman Forbes, we have a chart not 
unlike what General Stultz has in the Army Reserve in terms of 
our history with regard to end strength. And it is similar in 
terms of the dip that you see in 2005-2006. And what we saw in 
2005-2006 was the change in the Reserve Component from the 
strategic Reserve to this operational Reserve that we have 
today.
    And what happened in 2005-2006 is, we had a cohort that had 
joined back before 9/11. And we had talked and we had sold 
college benefits and those kinds of things in terms of service 
to country. And to their credit, they went down-range and they 
did a terrific job.
    But when they came back and they were reunited with their 
families and their employers, there was an influence there that 
said, ``You know what? I am not sure we are willing to do this 
again.'' And we saw a lot of those soldiers make a decision, 
for the right reasons, to leave our formations.
    At that point, we began changing the way we recruited 
people, the way we recruited soldiers. And what we did was, we 
recruited them for patriotism, for service to country. And we 
had soldiers who wanted to be part of something, who wanted to 
be part of a team, who wanted to go do something for their 
country, and yet were not interested in residing on Fort Hood 
or Fort Bliss or in the Active Component. And that Army 
National Guard team, that Army National Guard family, you find 
throughout our organization.
    I was at the Gulf oil spill a year ago. I met a father-and-
son team. They had both come into the National Guard since 9/
11, and they were very proud of their service. They were not 
only doing work on the oil spill in Louisiana, they were 
getting ready to deploy into Afghanistan. And they have been 
mobilized, and they are down-range together. The son, by the 
way, has graduated from OCS [Officer Candidate School] and he 
is a second lieutenant. His father is an E-5 sergeant, about to 
be a staff sergeant.
    I ran into a mother-daughter team at the southwest border 
in Texas 6 months ago when I was down there. Same story. They 
had joined since 9/11. The mother was so proud of her service, 
and she wanted her daughter to be part of something. And she 
invited her daughter into the organization, and invited her to 
be part of the Texas National Guard.
    People don't do that if they don't feel good about their 
service, if they don't like what they are doing. As a matter of 
fact, their tendency would be to serve and leave as opposed to 
invite their friends and, in this case family members, to be 
part of this organization.
    So, we think we have got a great team in this Army National 
Guard. We think we have a treasure across this country, not 
unlike the other Reserve Components. And so it is my pleasure 
to represent them here today.
    Mr. Forbes. Well, thank you, gentlemen. Thank all three of 
you for the great job you have done.
    Ms. Bordallo is now recognized for any questions she may 
have.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I decided 
I am going to go ahead with my first question, on behalf of 
Congresswoman Gabby Giffords. General Wyatt, I believe this 
question might be for you.
    As you know, Congresswoman Giffords is very proud of the 
brave men and women of Tucson's 162nd Fighter Wing. And she 
feels strongly their primary mission of building international 
partnerships via training tactical skill sets is a strategic 
imperative during these fiscally austere times.
    So, as the Joint Strike Fighter comes online, how do you 
envision the Wing's mission evolving? And can you discuss 
strategic significance of the Barry Goldwater training range?
    General Wyatt. Ms. Bordallo, thank you very much for the 
question. I had the honor and privilege of being in Tucson last 
Thursday. We were at part of the 162nd Fighter Wing. An 
attendant unit there is the Air Force Reserve and Air National 
Guard Test Center. And I was getting some out-briefs on our 
weapons and tactics conferences. This is where our warfighters 
come in across all of the core functions of the United States 
Air Force and tell us the equipment and the training that is 
critical to them in order to be a front-line military force.
    It is a great treasure that we have in Tucson at the 162nd 
Fighter Wing. The Wing's main mission, as Ms. Giffords knows, 
is to train foreign military students in the F-16 and the 
skills that are necessary to do that. Not only do you have to 
have the skills of being a fighter pilot, but you have to be 
able to teach the skills. And there is a big difference in 
being able to do it, and being able to do it and teach it.
    And you throw in the additional challenge of having 
students who may not be quite as proficient in the English 
language as we would like them to be, it takes a special 
talent, special skill, that exists nowhere else in the United 
States Air Force except Tucson, Arizona. So it is a national 
treasure.
    As we are seeing in the paper, and we are following the 
development of the F-35, we know that in addition to the 
coalition partners that have signed on as part of the Joint 
Strike Fighter F-35 program there are a lot of other countries 
now who are recognizing the capability that this aircraft 
offers, and they are approaching the United States for 
opportunities to buy that aircraft.
    I see a need, a continuing need, for the 162nd to continue 
doing not only the F-16 foreign military training mission, but 
to gradually transition into the F-35 as more and more of the 
F-35 become available to our coalition partners and allies that 
desire to get into that airplane. So I do see them 
transitioning into the F-35.
    In fact, they were one of the training bases that was 
identified a year ago this last July by the Secretary and the 
chief of staff as one of the potential bed-down bases for F-35 
training. They were not selected as the primary location--I 
think Luke was and Eglin--but they were certainly on the list. 
And I would think, as this aircraft comes into the inventory, 
they will get closer and closer to realizing that mission.
    Ms. Bordallo. Thank you very much, General. And I know that 
Congresswoman Giffords will appreciate what each of you do for 
our country, and we look forward to having her back with us 
again soon.
    My question then for, I guess, each of the witnesses; what 
would be the impact on the National Guard and Reserves if you 
had to go back to the strategic Reserve model of training and 
deployments?
    If you can just quickly answer that, beginning with you, 
General?
    General Stultz. Yes, ma'am. As I indicated, the chart here 
I think is indicative. I think we will lose a lot of soldiers. 
Just what Chairman Forbes asked, ``Why are they here?'' They 
are here because they want to serve and they want to do 
something, will say, ``If I am not going to have the 
opportunity, if I am going to go back to a strategic one-
weekend-a-month service, I don't want to stay in.''
    So we will lose that investment, and we will lose that 
talent. But additionally, this Nation will lose their ability 
to respond because of the capabilities that we have. We are the 
ones that open the theatre. We are the trucks, we are the 
boats, we are the logistics, we are the people who push that 
force into the theatre to respond to a contingency.
    And if we don't invest and if we don't maintain this 
support we will lose that ability also. And the next time we 
have to respond to a contingency somewhere else in the world it 
will take us longer as a nation to respond and get the forces 
in, in the magnitude that we need.
    Ms. Bordallo. Thank you.
    General.
    General Wyatt. Congresswoman, I think the answer is very 
similar. If we were relegated back to strategic Reserve, a la 
the Air National Guard that I joined back in 1977, I think we 
would have a mass exodus of people. Because they are joining 
our organizations now because they know they train to the same 
standards, they know they are as good as, they know they 
provide the top line combat capability, and they want to 
continue doing that.
    We offer them the opportunity to do that at a significantly 
reduced cost to the country. And they recognize that they are 
the best bang for the buck as far as providing that military 
capability. If we put them back on the burner as a strategic 
Reserve they will still cost the country money, but they won't 
be able to provide that front-line--respond at the same speed 
of light--that the Active service responds. They won't be able 
to provide that capability.
    The other thing we do is, we take away the abilities of the 
governors and the adjutants general to respond to the domestic 
demands of their offices as those guardsmen are in Title 32 
status. We train to such high standards in the military, and we 
use the level of that training in response to our state 
missions, too.
    So if we do that, we would actually be taking a double hit. 
We would lose military combat capability, besides losing our 
people. And we would lose the ability to respond on a moment's 
notice on behalf of the governors and the adjutants general.
    Ms. Bordallo. I think that what comes to my mind is the 
experience they bring. I mean, that is just invaluable. It is--
--
    General Wyatt. Well, if I may----
    Ms. Bordallo. Yes.
    General Wyatt [continuing]. Along those lines, one of the 
reasons that we are cost-effective--and I will talk about 
fighter pilots because that is what I am most familiar with--is 
because of the experience level that we have in the combat air 
forces inside of the Air National Guard, our experience level 
is--this is based on the number of hours and sorties and 
numbers of deployments and other things, skill levels--we have 
a 90 percent skill level in the Air National Guard. The Active 
Component is 40 percent.
    This allows us to maintain that high level of proficiency 
while we fly our people two less sorties per month than the 
Active Component gets. When you talk about an aircraft that 
costs $10,000 to $20,000 an hour to fly, we save perhaps a half 
million dollars per pilot a year just because of our experience 
level. And we can do that because of that experience level.
    Ms. Bordallo. General Carpenter.
    General Carpenter. Ma'am, I would echo everything that 
General Stultz and General Wyatt had to say. I would add this. 
With regard to returning to a strategic Reserve, there is no 
funding in the Army's base budget to support the mandates and 
the additional requirements that go along with this operational 
Reserve.
    We have built this operational force on OCO [Overseas 
Contingency Operations funding], and when OCO goes away we in 
the Guard and the Reserve are going to be back to 48 drills and 
15 days of AT [annual training]. So there will be no 
requirement for anybody to do anything except watch as this 
force is put back in the box, back to 48 drills and 15 days of 
annual training.
    Ms. Bordallo. Thank you. Thank you very much. And one other 
quick question I have. This is in regard to the future of the 
C-27J. Can you talk about the future viability of the fleet, 
and the intended platform mission sets, given the growing 
concern that the reduced inventory will not be able to 
adequately support crew proficiency, operational readiness, and 
infrastructure investments?
    As you know, this committee remains concerned that the 
Department plans to retire the C-23 Sherpas without accounting 
for how the tactical airlift will be accomplished. The C-27J 
was the replacement aircraft, but the program was significantly 
cut and shifted to the Air Force. So what are the plans to 
support domestic emergency operations and other contingencies?
    General, begin with you.
    General Wyatt. Congresswoman, that is an excellent 
question, and one that I think is hard-pressed to answer right 
now. Let me just review a couple of things that have happened 
in recent years, talking about the C-27. I will let General 
Carpenter talk about the C-23.
    But if you go back to 2005, BRAC [Base Realignment and 
Closure], the Air National Guard lost over 20 percent of its C-
130s as a result of BRAC. We were able to respond to Katrina 
with over 220 aircraft because the effects of BRAC had not 
begun to be implemented. Now our numbers are well below that 
200 level, coupled at a time when the Army has put the C-23, 
perhaps, on the chopping block. And I will let General 
Carpenter address that.
    As has previously been referenced, the program of record 
right now for the C-27J is 38. And so, we are marching to that 
tune. As we speak, the C-27 is deployed in Kandahar, 
Afghanistan. The Mansfield Air National Guard is flying that 
aircraft in combat today.
    The anticipation of the need of this aircraft being flown 
in direct support to the Army in the theatre, and the reduced 
numbers, drives the Air National Guard then to consider ways to 
meet those mission requirements overseas with all the airplanes 
that will eventually be deployed overseas, at the same time as 
continuing our training here at home to keep our pilots and air 
crew proficient and also bring on new pilots and air crew.
    This has required us to up the crew ratio per airplane--
traditionally somewhere around two crews per airplane for an 
airlifter--to five, to allow enough air crews to do the 
deployment mission overseas and continue training here. So that 
is how that has affected us.
    We continue to look forward to continue feeling of the C-
27J. The demands for the domestic operation are where I have 
great concern. Because while the Air Force will tell you that 
there is sufficient airlift to handle the demands of the 
country around the world, the question I ask is, ``Okay, but 
how long does it take us as an Air Force to do that?''
    We look at the requirement for domestic operations, 72 
hours is a lifetime. It is an unacceptable time-response frame. 
When the governors call upon airlift, they need the airlift 
right now. It speaks for a need of what I would call ``organic 
airlift,'' airlift that is in the Air National Guard at the 
behest of the governors so that they can respond to national 
emergencies.
    The Mobility Capabilities Requirement Study 2016 that came 
out addressed support to the homeland, but it referenced the 
access to the Active Duty airplanes which will be available. 
But most of them are deployed, and I would submit to you it 
takes about 3 days to get a C-130 from Japan home. That is 72 
hours.
    Ms. Bordallo. Oh, I agree with that, sir.
    General Wyatt. You know the time and distance. The response 
to the civilian fleet is the same thing. It takes about 96 
hours to get a civilian aircraft on contract to do a domestic 
mission. All those are too late for the response to the 
homeland. So I am working with the Air Force, and I am getting 
a lot of support to go back and look at the domestic 
requirements for airlift. Especially in view of the fact that, 
subsequent to the Mobility Capabilities Requirement Study, 
Secretary Gates said, ``Stand up these 10 homeland response 
forces, 556 soldiers and airmen, to be able to respond.''
    Sometimes needing airlift, most probably needing airlift, 
as the National Level Exercise 11 in May showed us when we 
practiced for the fault line earthquakes--Mississippi, Ohio, et 
cetera. There is a need.
    I think we need to determine what the requirements are for 
the homeland. I have asked for the help of NORTHCOM [Northern 
Command], and NORTHCOM is helping us develop those requirements 
in conjunction with Air Mobility Command, Transportation 
Command, so that we can get a true handle on the requirements 
for the domestic airlift, in addition to the warfight airlift 
requirements.
    Ms. Bordallo. Thank you General.
    And quickly, General Carpenter. I know I have overstayed my 
time, I guess.
    General Carpenter. Yes, Congresswoman. A couple of key 
points. All the C-23s are in the Army National Guard. Because 
of a budget decision, we have been directed to divest ourselves 
of all of those C-23s by FY [fiscal year] 2015. We currently 
have four that are parked on the ramp in Texas. They are no 
longer available for us to use and we will progressively park 
the rest of them over the next 4 or 5 years.
    We think that the gap that General Wyatt alluded to right 
now in terms of homeland defense and support, that is coming 
and is being accomplished by the C-23s. But for the C-23s, we 
wouldn't be filling that gap in terms of short takeoff and 
landing and tactical air kind of things that are being provided 
by the C-23s. We think that it is a pretty valuable aircraft.
    I was in Balad 6 months ago, in Iraq. There were 10 
aircraft on the ground there, 9 present for duty because 1 was 
in transit. All nine of those aircraft flew that evening. And 
they supported everything from Special Ops [Special Operations] 
to normal flights back and forth. And so this aircraft provides 
that kind of capability. It also provides observer support 
during the oil spill, for domestic operations.
    We have two of them in the MFO [Multinational Force] Sinai 
mission that provide observer support in that venue to support 
the MFO Sinai mission there. So we think they are a great 
aircraft. Unfortunately, we are going to be divesting ourselves 
of those particular aircraft over the next 4 years.
    Ms. Bordallo. Thank you very much. Thank you, General.
    Mr. Forbes. The gentleman from Nevada, Dr. Heck is 
recognized for 5 minutes.
    Dr. Heck. Thank you Mr. Chairman. Thanks to all three of 
you for your lifetime of selfless service to our Nation. And in 
the interest of full disclosure, I will say that I am one of 
the over 205,000 Army Reservists that General Stultz commands.
    Just a quick comment at first. I won't take away from the 
idea that those that join now do so out of patriotism, but I 
think it is also important to know it is a two-way street. 
Folks join the Reserves so they get to do some pretty neat 
things that they don't get to do--that that scientist at P&G 
[Procter and Gamble] or the MIT Ph.D. is not going to get an 
opportunity to jump out of airplanes, fast rope out of 
helicopters, and not to mention the incredible leadership 
training opportunities that will set them up for success in 
their civilian careers. So it is a two-way street.
    General Stultz, as you know my area of concern mostly is 
military medical readiness, and we have had several discussions 
on that. First, I want to start off by congratulating Major 
General Stone and Colonel Kiernan for the things that they have 
done to help clean up some of the issues that we have seen with 
overdue profiles.
    My question is, has there been an audit done of the LHI 
[Logistics Health, Inc.] contract and the costs associated with 
those mass events per unit soldier, the cost and the impact of 
no-shows on vouchers, and ways to look at cost containment by 
pushing more of what LHI does back to our military force?
    I know we are doing ORWs [Operation Ready Warrior] for 
dental, which have been successful, rolling perhaps those out 
to include vision and immunizations, having our medical 
personnel perform the physical examinations for those that are 
being jammed up by temporary profiles.
    So one, has there been an audit? If not, are there plans to 
have an audit? And what are the plans to move forward to push 
some of those activities being contracted out back to our TPU 
[Troop Program Unit] soldiers?
    General Stultz. To answer the first question, as a formal 
audit I can't say that we have done a formal--if you want to 
call it an audit--to run the traps on it. We have looked at how 
much we are spending and what it is costing us and is it cost 
effective.
    As you well know, we have gone back to LHI to renegotiate 
some of the provisions of the contract to limit what they 
actually do for us. And I think the big question I have asked, 
to be perfectly straight with you, in the process of what LHI 
does for us when a soldier fills out the personal health 
assessment, a doctor from LHI who has no access to that 
soldier's records makes a determination of what care or what 
profile he needs.
    But it still has to go to our Regional Support Commands to 
get further looked at by a doctor. And in a lot of cases 
further on, I am not sure what the value is there exactly. And 
what we have to do, I think, as we are going to be forced to 
draw down in our budgets, is do what we have already started, 
as you allude to.
    We are going to have to do a lot of this stuff ourselves, 
and use our own resources. Now in the past, we have gotten away 
from that because of the demand and the op tempo [operations 
tempo] and the training needs and everything else we have had 
on our medical force.
    But as that demand comes down, as we draw down out of Iraq 
and as we gradually draw down out of Afghanistan, those medical 
resources that we have got within our Reserve are going to 
become more available to us. We have got to take advantage of 
them. We have got to get back to the traditional, where we use 
our own resources to perform those medical examinations, those 
medical determinations, because we can do that on our time.
    You know, when we try to send a soldier to get a medical 
exam, we have to do that based on when the doctor is available. 
And quite often we take that soldier away from his civilian 
job. When we use our own resources, we have a little bit more 
control over saying, ``You are going to go here on this 
weekend, where the soldier is already there, and you are going 
to give him that examination and all.''
    So yes, sir. I am all for, and have our staff looking at, 
shifting more and more of that, as we started in American 
Samoa, as we have started in Alaska, as we have started in 
other areas where we are providing medical and dental support 
to our soldiers on exercises. Now, how do we get to them on the 
drill weekends and continue that support?
    Dr. Heck. I appreciate that, and it is very encouraging. 
And I would encourage at some point that there is a full audit 
done of LHI to see whether or not what they are providing has 
been cost-effective. And as we start to move some of those 
activities back to our TPU or ARS [Army Reserve Soldiers] 
soldiers, that we can see whether or not it is truly cost-
effective.
    So thank you and thank you for your forthrightfulness.
    General Stultz. Roger, sir.
    Mr. Forbes. Thank you Dr. Heck.
    The gentleman from New Jersey, Mr. LoBiondo is recognized 
for 5 minutes.
    Mr. LoBiondo. Thank you, Mr. Chairman. Gentleman, thank you 
for being here. Thank you for your service.
    General Wyatt, you know my sympathies were focused on the 
177th and I classify them--I don't know if all of my colleagues 
would agree--as the premier homeland security base, primarily 
because of their strategic location and what they can bring to 
the fight in so many ways.
    But could you give us some insight on where you see--and I 
am going to go with the old name too, ASA, because it is going 
to take me a while to get switched over--the ASA mission going 
and its construct in the future, in light of the Air Force 
budget cuts which may have an effect on critical Air National 
Guard missions?
    And additionally, I am wondering if you have been speaking 
with the Air Force brass, their leadership, to ensure that the 
ASA units receive the upgrades necessary. I have been talking 
about this, and Mr. Chairman you have been helpful with this 
and this committee has been helpful. But some of these Air 
Guard units are running with iron that is just--their wings are 
going to fall off.
    And if they can't fly they don't have a mission. So I would 
hope you could talk to us a little bit about this.
    General Wyatt. Mr. LoBiondo, first of all 177th, great 
organization. You are right. Their strategic location, along 
with probably the 113th here in DC to protect the National 
Capital Region, is strategically probably the two most 
important locations that we have. They are all important 
because they protect the American citizens.
    But I see the ASA-ACA mission as one imperative for the 
safety of this country. It is mission number one. There has 
been a recent study done by a former commander of NORTHCOM, 
Admiral Sandy Winnefeld, who is now the vice chairman of the 
Joint Chiefs. Some of that is classified, and I won't get into 
that.
    But I think that a review of that report shows the 
importance of that mission for homeland security. So I see a 
continuing reliance upon the Air Sovereignty Alert mission for 
the safety of this country.
    On September 11, 2001, we were up at seven locations. 
Today, in the continental United States, we have 16 locations. 
All of those are flown by the Air National Guard. The United 
States Air Force flies one in Alaska with F-22s.
    We get into this discussion about whether you need fifth-
generation fighters to do the Air Sovereignty Alert, not 
necessarily for the stealth, but for all the other capabilities 
that fifth generation brings--ESR [electronically scanning 
radar] radar, integrated sensor fusion among not only the 
sensors on the aircraft itself, but all of the other sensors 
available--land-based radar, radio reports, chats, a lot of 
different sources for some information to help us in the 
intercept of these targets.
    And then Hawaii Air National Guard location, who will be 
flying the ASA-ACA mission in F-22s. The airplanes, most of the 
airplanes, that we do the ASA-ACA mission with are the oldest 
F-16s in the inventory. And you are very familiar with that 
because the 177th flies a Block 30 F-16.
    The Air Force has put in some weapons system sustainment 
money that will keep the airframes themselves viable, we think, 
for a couple of more years. We thought 2017-2018 would be the 
structural limitations. We think there are sufficient monies to 
keep them flying until 2019, maybe 2020. But the structural 
part is just a part of the issue.
    The other part, and probably for the mission equally as 
important, is the ability to detect, meaning these aircraft 
need state of the art radars. The ones that they are flying 
with now are extremely expensive and difficult to maintain. A 
lot of the parts are no longer manufactured.
    Only because we have the best maintenance people in the 
world in the Air National Guard are we able to keep some of 
these support systems onboard the aircraft working. They lack 
beyond line of sight radio communications that are necessary 
for this mission. They lack the ability to integrate and infuse 
all of the sensor data that is available for intercepts.
    And so we are kind of operating with our hands behind our 
back here as we go forward. We can still accomplish the mission 
in the short term. My concern is the long term. And if we don't 
put money either into these aircraft to give them the 
capabilities that they need to continue, or if we don't replace 
them with the F-35 aircraft, we face a continuing rising 
expense, perhaps cost prohibitive, if there is such a thing for 
the Department's number one mission. Or we are going to see 
mission failure because we simply cannot stretch the life of 
these airplanes out any longer.
    Right now, the only Air National Guard unit that performs 
Air Sovereignty Alert that has been named to receive the F-35 
is Burlington, Vermont. No other Air National Guard unit has 
been named. And you have got to remember that the units that do 
ASA and ACA, that is not their only mission. They also rotate 
and do the AEF [Air Expeditionary Force] mission OCONUS 
[outside of contiguous United States] overseas, Iraq and 
Afghanistan, and other possible locations in the world where 
stealth is a requirement to be able to get into access-denied 
areas.
    So I think a healthy investment in the F-35 and the Air 
National Guard is great, is required not only for the foreign 
fight overseas, but more importantly for the defense of this 
country with the ASA-ACA missions.
    Mr. LoBiondo. Thank you, General.
    Mr. Chairman I had a couple of more questions, but maybe I 
can submit them for the record.
    Mr. Forbes. We would be glad to take those into the record.
    Mr. LoBiondo. Thank you.
    Mr. Forbes. Gentleman from Texas recognized for 5 minutes.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. And gentlemen, thank 
you for being here this morning. I apologize for having to 
leave, but we have got some conflicts in some of our 
committees.
    As I fly home almost every weekend through Dallas, I get a 
chance to interact quite a bit with not just regular duty 
soldiers and airmen and sailors going through Dallas, but also 
recently a bunch of National Guard and Reserve individuals as 
well.
    And one of the things I asked them, you know--particularly 
since 9/11--we have asked a lot of our Reserves and National 
Guardsmen. And one issue that keeps coming up is the 
predictability of military service. And it may be a 
contradiction in terms because it doesn't make sense. Because 
they tell me prior to 9/11 they had a good idea of whenever 
they might be called up because of floods, hurricanes, those 
kinds of weather-related issues.
    Post 9/11, however, it is a completely different situation. 
We are asking a lot of them. We are asking them to leave their 
jobs for extended periods.
    So my question is, how do you plan--or maybe it should be 
can you plan--to somewhere, at some point, normalize again the 
activation and mobilization of our Reserves and National 
Guardsmen. Is that viable now, post 9/11? Are we, at some 
point, going to be able to give them that predictability for 
activation?
    Because retention is the big issue. You know, so many of 
them say, as my colleague was saying, ``We get to do some 
pretty neat stuff.'' And in the old days it was under more of a 
normal environment. So I kind of would like to get each of your 
comments on that aspect of it.
    [The information referred to can be found in the Appendix 
on page 127.]
    General Stultz. Yes sir. From the perspective of the Army 
Reserve, yes sir, I think we can. When I talk to soldiers and I 
ask them, ``What do you want?'' They really give me three 
specifics usually, the first one being predictability. 
``Because I have got another job, I have got another life, and 
I need to be able to predict when the Army is going to use me 
and when I am going to be able to focus on my other career.''
    Then their second thing is, ``Don't waste my time. If you 
are going to train me make it effective, make it worthwhile. 
Don't just waste my time.'' And the third one is, ``Use me. I 
have signed up to do something, I want to do something, so use 
me.''
    And what we have adopted is, you have heard of the 
ARFORGEN, the Army Force Generation model, which is a 5-year 
model for the Army Reserve. For every 1 year, or whatever you 
are called up, you get 4 years back home of stability and 
progressive training readiness to get back to that fifth year.
    Soldiers have said, and employers have said, ``If you can 
give me that predictability, I can live with that. Because 4 
years in a 20-year career, that means I would be used about 
three, four times at most. It gives me about 4 years back 
home.'' Which for most of our kids--and I call them kids--they 
change jobs about every 4 or 5 years. So they start a different 
career anyway in a lot of cases. So they are used to kind of 
starting over.
    That is the key. And the key to getting that ARFORGEN model 
is, one, we have got to be able to get the Army to say this is 
what we need from you each year. And then we have got to slice 
it into five slices, and build our force structure so we can 
give the Army what they require every year in a predictable 
manner.
    And then we have got to build that training and equipping 
model, which requires the resources to be able to give that 
soldier what he wants, meaningful training. ``Don't waste my 
time.'' It is going to be meaningful whether it is simulations, 
or whether it is in-the-dirt training with the modern 
equipment. And if we can do that the soldiers will say, ``I 
will be here with you,'' and employers say, ``We will be here 
with you also.''
    General Carpenter. Sir, not unlike the situation that 
General Stultz just described for the Army Reserve, it is 
essentially the same for the Army National Guard. The Army 
Force Generation model has provided that level of 
predictability that we didn't have before.
    On January 19, 2007, then Secretary of Defense Gates made 
the announcement the Reserves, the National Guard, would be 
mobilized for 1 year and 1 year only. And that provided the 
predictability in terms of how long you were going to be away 
from your job and be away from your family. A huge step forward 
for us in the Army National Guard.
    Separate from that, when we started into this we did very 
short-term notification and mobilizations. And it was painful. 
Some of our units were notified, and at the MOB [mobilization] 
station and going down-range inside of 30 days at the start of 
what we saw in Iraq and Afghanistan, and that was certainly a 
shock to the system.
    What we have derived to is a notification of sourcing. That 
is, notifying the unit at least 2 years in advance that they 
are going to be used, alerting them at 1 year out, and then 
providing the mobilization order 180 days out. And the 180 days 
out is very key because that allows for the soldier to have the 
TRICARE benefits that they didn't have before.
    So if they do not get the mobilization order they don't get 
that TRICARE benefit. And we are seeing, as we come down now 
out of Afghanistan and Iraq, the off-ramps, first of all, 
delays in issuing the mobilization order for good reasons. 
Because we want to ensure that these soldiers are, in fact, 
going to go. And so they are being disadvantaged because they 
don't have the TRICARE eligibility.
    And then beyond that, we are seeing some units off-ramped, 
in other words not going to the mobilization station. We 
recently had a Utah unit of about 400 soldiers that were 
planning on being mobilized and going down-range here on the 
15th of September, and their mobilization was canceled because 
there was no requirement for the unit.
    We have worked with the Army, and identified soldiers who 
have hardship cases and ones who left their jobs and don't have 
employment, those kinds of things. And we have found ways to do 
tours of duty separate for those particular soldiers. In the 
case of the Utah unit, TAG [The Adjutant General] Utah made 
arrangements with the schools. And they have got 25 percent of 
those soldiers now back in school doing college instead of 
missing a semester.
    So it is a painful process, but the predictability is 
absolutely key.
    Mr. Forbes. Thank you, General.
    The gentleman from Georgia, Mr. Scott, is recognized for 5 
minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    General Wyatt, first of all I represent Robins Air Force 
Base in the 116th. I would like to invite you to visit us, see 
our J-STARs [Joint Surveillance Target Attack Radar System], 
and talk with you about the future of that program. Do you 
think we have enough J-STARs, just offhand?
    General Wyatt. I think we need more of the capability.
    Mr. Scott. Yes, sir.
    General Wyatt. Whether it is in that particular platform or 
another one is, I guess, up for debate and something that we 
could talk about.
    It has been several years since I have been to the 116th, 
but I have been down. And I know that with the GMTI, the Ground 
Moving Target Indicator, that that particular platform 
provides, it is in demand all over the world. The 116th is one 
of those high operations tempo Air National Guard units because 
there is, in my opinion, not enough for the GMTI capability.
    The Air Force is trying to robust that capability through 
not only enhancement of the J-STARs, but other platforms that 
can provide similar capabilities. Not the same kind, because in 
the J-STARs you have the sensor operators and the folks in the 
back that can give you real-time analysis of what they are 
seeing through the sensor systems.
    The sensor systems themselves are getting old and worn out. 
And, again, Air National Guard Maintenance keeps those things 
flying. But it is a great unit. To answer your question, we 
need more of the capability, and we can talk about how that 
might be provided.
    Mr. Scott. Well they do an excellent job for this country 
and our allies. And if you get the opportunity, we would love 
to host you down there and do a tour of the planes.
    Gentlemen, thank you for your service and the men and women 
that you represent. General Carpenter, I want you to know that 
I heard what you said--don't micromanage my command. Give me my 
budget number and let me handle it. And I hope that is the way 
we do it.
    And one last question, if I could, General Carpenter. How 
many different budget numbers do you get in a year? How often, 
with continuing resolutions and other things, is your budget 
changing and how much difficulty creating for you and your 
command?
    General Carpenter. I think what we saw last year with the 
continuing resolutions and the stutter starts and stops were 
concerns by our soldiers about whether or not they were going 
to get paid or whether they weren't going to get paid.
    I know that Congress, and I know the President have gone 
the extra mile to try and ensure that that worry goes away. But 
frankly last April when I was in Iraq and when we had the issue 
with the continuing resolution, it spread like wildfire across 
that community about the situation with regard to pay and 
allowances and benefits.
    The goal here is for those soldiers down-range to 
concentrate on their mission.
    Mr. Scott. Yes, sir.
    General Carpenter. To do what they need to do, to not be 
distracted. And our goal, and I am sure yours is the same, I 
think the extent that we are successful in that then we are 
going to see soldiers that are going to be successful in their 
mission.
    Mr. Scott. Thank you, sir.
    Chairman, I yield back.
    Mr. Forbes. Thank the gentleman for his questions.
    The gentlelady from Hawaii, Mrs. Hanabusa, is recognized 
for 5 minutes.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    General Carpenter, you have said certain things that have 
piqued my interest. First of all, you mentioned an amendment to 
a statute, I think it was Section 12304. Or did I hear you 
correctly? You want a change in the statute. Was that the right 
section?
    General Carpenter. Yes, ma'am, it is Title 10, Section 
12304.
    Ms. Hanabusa. And what exactly is the change that you are 
looking for?
    General Carpenter. The situation inside of the Army 
National Guard and the Army Reserve, and the Air National Guard 
and Air Reserve, right now is that we have no authority to 
involuntarily call our soldiers to duty unless it is a named 
operation like Operation Iraqi Freedom or Operation Enduring 
Freedom.
    If we want to continue to use this operational Reserve and 
not use it for those kinds of contingencies--use it for theatre 
engagement, theatre cooperation, in our case, State Partnership 
Program initiatives, those kinds of things--we have got to be 
able to involuntarily call our soldiers to active duty as a 
team, as a unit, to be able to do that.
    This modification of 12304 allows that. Initially, the 
proposal was that inside of the defense budget, the President's 
budget, was going to be the authority for 60,000 reservists to 
be called to duty during that budget year. And that those 
60,000 soldiers or reservists would have a funding line 
associated with them.
    So it was going to provide the authority, provide the 
funding. And that by way of it being inside of the President's 
budget de facto, it was the President's consent----
    Ms. Hanabusa. Call.
    General Carpenter [continuing]. To be able to call those 
reservists to active duty.
    I think that the Senate version, as I understand it, 
reduced that 60,000 to 10,000. And even at 10,000, at least it 
provides the opportunity for us to do the involuntary call-up.
    Ms. Hanabusa. The reason it piqued my interest is because 
one of the issues that I raise with almost everyone who comes 
before us that is National Guard and/or Active is, that issue 
arises is really the conflict between Title 10 and Title 32 
status, which, of course, involves the two of you there.
    And something else that you said is also, I think, critical 
in understanding another issue. I think you also said that as 
the end strength comes down you are concerned about OCO funding 
because a lot of the operational status of the Guard is tied 
to, basically, OCO, our overseas operation.
    Pending, I think an issue that is dear to both of your 
hearts, is whether or not there will be, quote/unquote--a 
``fourth seat,'' or the seat for the Guard on the Joint Chiefs. 
And it would seem that unless there is some understanding of 
all of us as to what exactly this change to Section 12304 would 
be one step, is that as we cut the end strength, or as maybe 
OCO starts to cut, which is anticipated by everyone's budget, 
and if you go back to a strategic kind of command for the 
National Guard Reserves is always Title 10, does that not call 
into question this whole debate that they are now having about 
whether or not the Guard should then have a, quote/unquote--
``seat'' with the Joints. Because of the fact that if you go 
back to the pre 2005-2006 timeframe, the question will be how 
would that then be justified, because most of your rank and 
file would technically be under state control because they 
would be Title 32 status.
    General Carpenter. Ma'am, actually, unless called by the 
President we are in a Title 32 status. And the only exception 
for that, for the most part, are people who are mobilized and 
deployed down-range in Afghanistan and Iraq. And the response 
to Hurricane Irene, for instance, was totally done in a Title 
32 state Active Duty status.
    I think the great news story for us in the National Guard 
is that we do now have a four-star general to represent our 
interests. And his responsibility by the Guard Empowerment Act 
is to provide counsel to the Chairman of the Joint Chiefs and 
to the Secretary of Defense on homeland matters and 
capabilities and requirements inside the National Guard.
    So I think that is a very positive step forward.
    Ms. Hanabusa. But the purpose of him being on equal status 
on the Joint Chiefs is for, I would assume, equal status in 
terms of military decision-making as well.
    General Carpenter. He does not have a seat on the Joint 
Chiefs.
    Ms. Hanabusa. No, but there is an issue of whether he will 
have a seat. That is something that I think every one of your 
adjutants, your TAGs, have written in every local newspaper 
about why we should have it.
    General Carpenter. Yes, ma'am, they have.
    Ms. Hanabusa. Thank you very much.
    Thank you, Mr. Chair.
    Mr. Forbes. Thank you.
    The gentleman from New York, Mr. Gibson, is recognized for 
5 minutes.
    Mr. Gibson. Thanks, Mr. Chairman. And I appreciate the 
generals being here today.
    The first question has to do with current readiness. And 
then if time, I will talk about future readiness. But with 
regard to current readiness, given the drawdown in Afghanistan 
and how the command over there is dealing with that and 
adjusting, in your view, to the panel, are you getting adequate 
preparation and adequate timing of the specific missions for 
your units so that they can go through man, equip, and train to 
prepare?
    And particularly, now I am concerned about smaller units 
and how much lead time they are getting in terms of where they 
are going and what specific mission they are getting.
    General Stultz. Well, I think from the Army Reserves 
perspective, one of the metrics I can give you. If you went 
back 3, 4 years ago, when we mobilized a unit it was taking 
somewhere upwards to 60 days to 90 days post-mobilization to 
get them ready before we were confident they could go into a 
combat.
    Today, the average unit in the Army Reserves spends less 
than 30 days. One, because you do have a lot of experience, 
previous deployers in those formations. Two, because we have a 
training strategy that trains them, prior to getting mobilized, 
on a lot of the skills that they need.
    The concern I have got is not the forces deploying to Iraq 
and Afghanistan. That is kind of the easy one because I know 
where they are going, I know when they are going, and I know 
what their mission's going to be. My concern is the contingency 
forces of the future.
    Those are the forces that we are going to train and have 
standing ready if this Nation needs them. And for those forces, 
I don't know when they are going to need to go, I don't know 
where they are going to need to go, and I am not going to have 
much time.
    Mr. Gibson. Yes.
    General Stultz. And so that is why we have got to focus on 
it is easy to fall in on existing equipment, it is already 
modernized, and existing systems that are already there and set 
in place. What we have got to focus on is, how do we train a 
force for the future, the Army depending on us, that is trained 
and ready and equipped prior to being needed, not afterwards.
    Mr. Gibson. Yes.
    General Stultz. And if you run the contingency plans we 
have for our op [operations] plans in other parts of the world, 
most of my forces are needed within the first 30 days. That is 
when they are most needed.
    General Wyatt. Sir, I would, on behalf of the Air National 
Guard, a little bit different model that the Air Force uses 
than the Army instead of mobilize, train, and deploy. Because 
we provide 34 percent of the combat capability of the United 
States Air Force, the Air National Guard does, at 7 percent of 
the budget.
    We have to be trained, and then mobilized or volunteered, 
and deployed. So a little bit different structure. This 
requires an investment by the Air Force into the Air National 
Guard. And I am proud to say the Air Force has made that 
investment. They provide the Air National Guard, which is an 
organize, train, and equipped organization, with sufficient 
funds to train to the same level as they train to.
    Our DOC statements, our description of capability 
statements, require Air National Guard units to be able to 
answer the call, muster, deploy within 72 hours, and generate 
combat sorties in-theater within 72 hours. Same requirement as 
the Active Component.
    My concern as we go forward is, will there be sufficient 
funds to continue that level of training. I think there has to 
be for this country to have a viable Air Force. We are probably 
the leanest component, when you look at the Air Force, as far 
as combat capability.
    Ninety-eight point five percent of our 106,700 people 
belong to UTC [Unit Task Code]-task units. They are the 
warfighters. We are a wing-centric organization. Most of our 
people are in wings and below. So that is our warfighting 
construct. Only 1.5 percent is what I would call what I do. You 
know, administration, policy and that sort of thing.
    I think it is a key for the Air Force not only to continue 
organize, train, and equip funding to the Air National Guard to 
at least the level that it has this year, but continuing in the 
future. But also plan sufficient MPA [Military Personnel 
Appropriation] days so that once we are up on the step if we do 
have some sort of requirement nationwide we can respond and 
send our airmen in harm's way to bid the Nation's call.
    Mr. Gibson. Yes. And I will tell you that the 109th is not 
in my district, but it is very close. And I share that with 
Paul Tonko. I have had visits there, and I was really struck by 
the fact that for a very small portion of the budget they do an 
enormous number of requirements and do them very well.
    And General Carpenter.
    General Carpenter. Congressman, I know you have got some 
background in this, based upon your service in the Army. We 
have come a long way since Desert Storm, when it took 180 days 
for the 48th Brigade out of Georgia to meet at least the 
standard set, at that point, for mobilization and deployment.
    I know that you know that the 27th Brigade is in the queue 
to go down-range into Afghanistan. They are in the process 
right now of going to the National Training Center for an NTC 
rotation out there in anticipation of that mobilization. 
Because of that planning--the notification, the sourcing, the 
alert and that whole process--they have been able to plan for 
that mobilization, they have been able to prepare, and they 
have been able to increase their readiness.
    When they get to the mobilization station, we anticipate 
they will spend a little bit more than 60 days before they 
deploy down-range on that mission. That is a long ways from 
where we started in this business, and I think it is a tribute 
to the New York unit and it is a tribute to the Army and it is 
a tribute to where we have come in this operational force.
    Mr. Gibson. No question on that. Good. Totally concur.
    Did spend some time with them at their pre-mobilization 
family fair day. It was fantastic. I have got to tell you, it 
rivaled anything that we did on active duty the way they laid 
the whole community's resources out so families could come in 
and have access to health care questions, education questions, 
deployment type questions. It was quite extraordinary.
    The genesis of the question actually was, I do hear 
periodically--not with the 27th, but with the dynamic, the 
changing in Afghanistan--that as the command comes to grips 
with that, given the changing scenarios, that is giving less 
time for Guard and Reserve units to know explicitly what their 
specific mission is going to be. And that is having cascading 
impacts on man, equip, and train going forward.
    I know that you are monitoring that and doing everything 
that you can on that. I am short on time. I will tell you that 
I am working with Peter Welch from Vermont on the Yellow Ribbon 
Program. This is something of great interest to me.
    I think it is a good program, but I think it can be even 
better. As we look to the mark next year, you know, certainly 
welcoming all your feedback on that so we can perfect that 
program.
    General Carpenter. Sir, one of the biggest problems that we 
are facing right now is behavioral health issues, and the 
Yellow Ribbon Program has been key in that. I think you know 
the Army has a suicide problem. We have been fortunate to trend 
ours down a little bit in the Army Guard. But, you know, one 
data point does not a trend make. Yellow Ribbon is key in that, 
and the funding for that program is essential.
    Mr. Gibson. Yes.
    And gentlemen, I am out of time, regrettably. But I just 
want to thank you for your service, your tremendous leadership 
you provide, and I look forward to working with you going 
forward.
    I yield back, Chairman.
    Mr. Forbes. Thank you.
    And the gentleman from Illinois, Mr. Schilling, is 
recognized for 5 minutes.
    Mr. Schilling. Very good. Thank you, Chairman.
    Chris had touched on a few of the things I was going to 
talk about or ask questions about. Anyway, first I want to 
thank you for your service to our country.
    One of the concerns that I have for our country is with the 
debt problem that we have because I think we all understand 
that it is going to be a huge problem. I guess my concern is 
the warfighter because, basically, what is going on in the 
Middle East is definitely not going to go away anytime soon. 
And basically, what I would like to know is what you gentlemen 
are seeing with the cuts that are coming, how that is going to 
adversely affect us. And then, you know, basically anything 
that we can do to try to help out.
    And General Carpenter, you know, I want to say one of the 
things that I think is totally wrong is when we have these CRs 
[continuing resolutions] and our warfighters are over there 
risking their lives. Literally, the worst thing that we can do 
here in the United States Congress is having them on the table 
whatsoever for any type of negotiating.
    I think that they should be completely taken off the table, 
you know, because they have got enough on their mind. To have 
to worry about the paycheck for just one split second is all it 
takes, when they are out there trying to do their job and 
protect this great Nation.
    So basically, just maybe some information on your thoughts 
on how this is going to affect us in the future warfighters.
    General Carpenter. You know, I think first of all I 
mentioned that we are looking at funding strategies and 
developing efficiencies inside of the Army and the Army 
National Guard. And it is a team effort between the Army 
National Guard, the Army, and the Army Reserve.
    For instance, family programs are essential to us. And I 
mentioned the Yellow Ribbon Program. Family programs are just 
as key. But we have hundreds of family programs out there. Many 
of them are duplicative. Some of them are redundant. Some are 
not even used. And so with the Army in the lead, we are looking 
across all those programs to try and determine which ones we 
can consolidate.
    And we are not trying to reduce the service provided to the 
family by any means. But we think we can deliver it in a lot 
more efficient, effective manner. Those kinds of things are 
areas of opportunity for us across the Army to harvest those 
funds and redirect them into priorities and into essential 
areas.
    But frankly, the Defense Department didn't get us into the 
budget problems we got right now, and the Defense Department is 
not going to get us out. But we are going to pay our fair 
share, at least from my perspective. So we are up for that. But 
again, before we default to reducing capability and deciding to 
hollow out the force or shallow the force, make it a lot 
smaller, we ought to look at those aspects first.
    General Stultz. I would just echo what Ray has said. And I 
think, as has been stated here by many of the members of the 
committee, one of the things that has been proven is the 
Reserve Component is a great return on investment for this 
Nation. And so as we look at trying to reduce defense cost, I 
think you have got to look at the Reserve Components and say 
what more can you give us. Are there other capabilities that we 
can invest in to save money, but also that confidence that they 
are going to be trained and ready when we need them and that we 
have got access to them.
    And then just as Ray had said, we have got to look 
internally within our organizations and say, okay, where can we 
get more efficient and more effective? One of the things we are 
looking at in the Army Reserve is, as we get new modernized 
equipment I have said to my commanders, ``You are not going to 
get a full set sent to your home station because at home-
station training, you are probably going to train at platoon 
level. And so what I want to do is give you a set of modernized 
equipment to train on at that level.''
    Then I am going to take a set and put it at Fort Hunter 
Liggett, California, or Fort McCoy, Wisconsin, so that when you 
go for your 3 weeks of training the equipment's waiting there 
for you that is modernized, and we don't pay to transport your 
equipment up there. I mean, there is a lot of those kinds of 
things we can say to save money ourselves internally to help 
fund the bill.
    General Wyatt. Just briefly, we learned in Desert Storm One 
that when so-called hostilities supposedly ceased there is 
still a need for some air presence. And we anticipate that 
there will be continued need, if those countries desire, for 
continued air presence.
    With the budget threats, you know, in my mind we have an 
option of either just shrinking the entire United States Air 
Force to meet those budgets which sacrifices not only 
capability but capacity, or we can take a look at force 
structure and recognize the cost efficiencies offered by the 
Air National Guard and the Air Force Reserve. And maybe take a 
look at, instead of sending airplanes and capability to the 
boneyard, maybe placing those in the Reserve Component, which 
can operate them less expensively.
    It provides that capability, it provides that capacity. 
Because I think there is probably going to be another event one 
of these days, and we are going to need that capability and 
capacity. Just a thought.
    Mr. Schilling. Very good. Thank you, gentlemen.
    Mr. Forbes. Thank the gentleman for his question.
    The gentleman from Mississippi, Mr. Palazzo, is recognized 
for 5 minutes.
    Mr. Palazzo. Thank you, Mr. Chairman. Am I the last one to 
go? Can I have more than 5 minutes?
    Mr. Forbes. You are next to the last, and you can have 4 
minutes and 50 seconds.
    Mr. Palazzo. Oh, great, great. No.
    Thank you all for being here today, definitely to testify. 
But more importantly, thank you for your service to our 
country. We greatly appreciate that.
    Today I had the awesome honor of receiving 86 World War II 
veterans as a part of Mississippi's Honor Flight program. We 
have, in the past, had to depend on Alabama's Honor Flight 
program. So we decided to start our own, and we actually had 
some Alabama participants on the Mississippi Honor Flight.
    Two of my major questions have pretty much been addressed, 
but I think it is worth asking again. And one is the CR. The 
multiple CRs that we had last year was just unnerving at so 
many levels. Lucedale's National Guard Unit is the 287th 
Engineering Company sapper platoon. They had the most dangerous 
mission, and they did an excellent job and came back 100 
percent thanks to MRAPs [Mine Resistant Ambush Protected 
Vehicles] funded through prior Congresses and others and the 
support from the Guard.
    But they had the most dangerous mission, the roadside 
clearance and IED [improvised explosive device] detection and 
stuff like that. The last thing these soldiers needed was to be 
worried about whether their spouses and their children were 
receiving their check so they could put gas in the car, food on 
the table, pay the rent. Because you know, we have to focus on 
our mission. It is dangerous enough, and then if you are 
distracted not only are you a danger to yourself, you are a 
danger to your teammates.
    So again, could you just elaborate--because I think we just 
need to constantly reiterate this to my colleagues throughout 
the House and both parties--the dangers that we face doing 
multiple CRs.
    General Stultz. Well, I think it is--and I will make it 
real quick so that Ray and Bud can talk too--morale, obviously, 
as you have already alluded to. But also in terms of us being 
able to train our force professionally and productively when we 
don't know how much money we are going to have.
    And I have got a 3-week training event for this soldier to 
go to that is going to be a good experience for him, and I have 
also got a school that he wants to go to improve himself 
professionally or technically, and I say, ``But I can't afford 
to send you to both because I am not sure I am going to have 
enough money.''
    Then come the summertime or whatever, and we have got the 
money, but the soldier says, ``You know, I can't go now because 
I have already committed my time and everything.'' We have lost 
an opportunity to improve a soldier, improve his capability. 
And we end up giving that money back.
    General Wyatt. We see the same concerns about pay. But in 
addition to that, what we see is our wing commanders who are 
responsible for handling the budgets at the wing level become 
very conservative. They begin, as General Stultz said, taking a 
look at the training cost. And because some of this is lead 
time required for planning to set up training events and 
exercises, out of an abundance of caution they will begin 
canceling. And we lose training opportunities that you can't 
make up after.
    In the acquisition world, a lot of our contracts have lead 
times. And if there is no assurances that the money is going to 
be there in subsequent years we will cancel contracts. And then 
if the money does flow at a later date, the cost of reinstating 
that contract goes up and we get less value for the dollar. So 
those are just some of the things that we face.
    General Carpenter. Sir, I already made part of my comments. 
And far be it from me to tell anybody how to do their business. 
But somebody mentioned earlier the exclusion of at least 
soldiers that are mobilized and deployed from that process 
would be helpful and would alleviate maybe that issue in terms 
of the angst associated with not getting paid.
    The other issue that General Wyatt alluded to is, last 
year, when we finally got our budget for NGREA [National Guard 
and Reserve Equipment Appropriation] and when we got our 
military construction budget it was midyear. And so we 
essentially had 6 months to execute that budget. We, at least 
my team I think, has done a terrific job in execution of NGREA 
for 2011, and we are going to hit the threshold of 80 percent. 
But I am telling you, we have had to do a lot to make that 
happen. So it causes some problems.
    Mr. Palazzo. I am kind of running short on time so I will 
just make some comments. First of all, I think it is extremely 
important that the National Guard has a seat at the table for 
the Joint Chiefs of Staff. I don't see our Guard and Reserves 
ever going back to a strategic Reserve. It is just the world we 
live in, it is the reality we have to face, and you all are 
part of our operational forces.
    As a citizen soldier that was a part of this strategic 
Reserve and a part of the operational Reserve, our force, that 
is just not going to happen. There is some discussion in the 
National Defense Authorization bill to do just that. And 
hopefully the Senate and the House can agree on that.
    And the Yellow Ribbon Program is a wonderful program. I 
have participated in that, and I thank them for their service. 
This is not only returning, but also deploying soldiers. So we 
were taking advantage of both of them on the Mississippi Gulf 
Coast. And I offered all of them and their families that my 
office is open to assist you in any way possible. Just be sure 
to use your chain of command, and they will help you.
    So thank you all for your service.
    Mr. Forbes. Thank the gentleman.
    And as you just pointed out, one of the things I think this 
committee is going to work very, very hard on, as Mr. Schilling 
raised, was to make sure that we try to get the pay and benefit 
for our men and women in uniform out of these discussions.
    But the second thing we just want to alert you to and 
everyone who cares about defense. Everything is kind of 
relative, and it used to be we worried about the timing issues 
for our supplementals and the contingency questions there. Now 
we are worried about whether the money is ever going to come, 
not just the timing issue. So we have a different fear that we 
are looking at.
    Mr. Conaway from Texas was very patient. He stayed from 
gavel all the way until he had to go to another committee. But 
General Wyatt, he had a question for you regarding missions on 
the border. And the question was this. What interaction do you 
have with the FAA [Federal Aviation Administration], and are 
there problems with flying remotely piloted aircraft along the 
southern border?
    General Wyatt. The answer is yes to both of those. There is 
an issue with getting remotely piloted aircraft into the 
national airspace. FAA does have that authority. We work very 
closely with them with the support of NORTHCOM and the United 
States Air Force, not only just for mission effects, but also 
for training.
    To launch and recover some of these aircraft, move them 
from their base to a training area, sometimes you have to 
transit Federal Aviation-controlled airspace. It is not 
dedicated military airspace. We are not necessarily interested 
in changing the shape and the structure of the training 
airspace, but these aircraft are very sophisticated.
    And while the FAA operates on principally a see-and-avoid--
very conservative, and rightly so--safety measure, some of 
these RPA [remotely piloted aircraft], even though you don't 
have the pilot actually in the vehicle, with the sensing and 
the video and everything else that is in the airplane really 
can see better than a pilot can.
    And we have got to prove that to the FAA, to their 
satisfaction that we can operate remotely piloted aircraft in 
the national airspace. We are making great process in doing 
that, and I think that day will come, sir.
    Mr. Forbes. And General, if you don't mind, if you would 
have somebody maybe from your staff contact Mr. Conaway's 
office to see. I think you have a great ally there. He wants to 
help you with that in any way he can.
    I have one follow-up question. I think Ms. Bordallo has one 
question. Because I know we are about ready for votes.
    But can you tell us how important it is for you to have 
additional access to equipment for training, especially 
simulators? Because I know you don't always have the access to 
some of the types of simulators and all, maybe, that the Active 
forces have. And what can we do to help you guys with that?
    General Stultz. Yes, sir. I have, in the last 2 years, been 
particularly focused on simulators. What is available, what is 
out there, what is over the horizon. I have made a number of 
trips down to the Orlando, Florida, area to visit simulation 
training command and some of the corporations that are down 
there.
    Because as I said earlier, what my soldiers say is, ``Don't 
waste my time.'' So if they are going to come in on a weekend 
drill period, they want to come in and do something meaningful 
and put them back in that same environment they have come from. 
And that is where simulations come in.
    But additionally, what was asked earlier about can we save 
money. One of the ideal examples for me is weapons training. In 
the Army Reserve, as you probably already know, we don't live 
close to an installation. So we look and say, ``Where can we go 
do effective range fire?'' Because we are required twice a year 
to do live fire.
    In some cases, like in Florida where I have commanded a 
unit, we have to go all the way up to Camp Blanding, which 
means we got to put them on a bus. We got to take time, get 
them up there, feed them, house them, bring them back for our 
training. Or we default to go into the local sheriffs range, 
which is really not an effective training.
    Meanwhile, we have got these Engagement Skills Trainers, 
EST 2000s, that can stimulate an M16, and M4, a 9-millimeter, 
whatever you want. And it can be more effective, really, in 
terms of training a soldier on breathing and aiming and 
everything else than ever putting him on a range.
    And so I have said that is what we ought to be doing. Those 
types of training simulators where we can put them in that 
environment in their Reserve center and get just as effective 
and save a lot of money because we are not using ammunition, we 
are not paying travel, we are not doing any of that. And the 
soldier walks away that weekend saying, ``This was a good 
experience. What are we going to do next month when I come 
back?''
    General Wyatt. Simulation in the United States Air Force 
has taken quantum leaps in the last few years. Used to, you 
could not get very realistic training unless you actually 
accomplished the mission in the airplane.
    But with the high-fidelity simulators that we have now, the 
ability to link simulators and to fuse some of the sensors, and 
virtually create situations in the simulator, it is an 
excellent opportunity to train. Saves gasoline, saves petrol, 
saves wear and tear on our airplanes, and it is the wave of the 
future, I think, in a lot of our training. You cannot do all of 
it in the simulator, but we can do an increasing amount.
    The problem is that just about all of the simulators are 
located on Active-Duty fields. We have only two F-16 units that 
have a simulator, only two C-130 units, three KC-135 units. 
That leaves 10 F-16 units, 5 F-15 units, 17 KC-135 units, and 
15 C-130 units that to get access to a simulator they have got 
to travel now to an Active-Duty base to access the simulator.
    The Active Component works with us to provide, in our 
budget, money to do that. But it is time-consuming, it is 
expensive, it burns fuel--not military fuel, but civilian 
fuel--to get there. And I think for us to really leverage the 
technologies that we have, save money--this is another cost 
efficiencies thing that we can do in the Air Force--we need to 
invest money in the simulators and get those out to the people 
that are going to use them.
    General Carpenter. Sir, with regard to the Army Guard, 
simulations is a big deal in the aviation world for us, the 
Army aviation world, because of the op tempo associated with 
Army aviation. We need to make sure that we do the advance 
scheduling so we do have access to those simulators. If we do 
that, it seems to work out. We do not have a simulator that I 
know of right now for the LUH [Light Utility Helicopter] 
Program, although we are getting sufficient flight hours to 
work those.
    And then beyond that, to get to General Stultz's point, you 
know, with the huge leaps and bounds that we are making in 
technology we see all kinds of computer simulation that can run 
everything from battle drills for Humvee evacuation to squad-
on-patrol. So those kinds of simulations are going to save us 
in the long term as opposed to spending 4 or 5 hours to get to 
a training area and then 4 or 5 hours back. So it is a huge 
facet to our program in the future.
    Mr. Forbes. If you will just have your staffs work with our 
staffs we will see what we can do to help get you those 
simulators that you need.
    Ms. Bordallo is recognized for the last question.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Chairman.
    Generals Wyatt and Carpenter, as I indicated in my opening 
statement I am concerned that the Department of Defense does 
not accurately account for homeland defense requirements. This 
hampers the ability of the Department to equip the National 
Guard or Reserve for such missions. What role is the Guard 
taking to work with the Department to make these requirements 
clear?
    General Carpenter first.
    General Carpenter. Yes, a couple of things. The critical 
dual-use equipment discussion that we had earlier with regard 
to equipment that we have inside of our formations in the Army 
Guard that can be used both for deployment down-range and use 
in the homeland mission has been very, very important. We 
started out 5 years ago with Katrina and we had M35s. We did 
not have the right vehicles. We did not have high-water 
vehicles.
    Fast-forward to what we saw with Hurricane Irene in North 
Carolina and New Jersey across the eastern border, we had 
modern equipment that provided capability out there to make 
sure that we could meet our responsibilities.
    We are concerned about what is the future of funding for 
homeland defense, homeland security. We have, as I mentioned, 
civil support teams, homeland response forces. In order for 
them to maintain their proficiency they will have to be funded, 
and we would not like to see them be a casualty in the budget 
process.
    Ms. Bordallo. So you are working with the Department, would 
you say?
    General Carpenter. Yes, Congresswoman. We are.
    Ms. Bordallo. All right. General Wyatt.
    General Wyatt. Inside the United States Air Force, I see a 
continuing increasing focus on the homeland, homeland defense, 
homeland security. But we are not quite there yet. We have 12 
core functions in the United States Air Force, and all of those 
do support the homeland, homeland defense, homeland security. 
But I think we need a core function that is domestic 
operations.
    And so we are working with the Air Force to try to gain 
acceptance, recognizing domestic operations as a core function 
of the United States Air Force. If we are able to do that, 
there would come with that budget funding for training for 
domestic operations. There is not now. Even though we have 
authority from the National Guard Bureau and regulation to 
conduct training, there is no funding line for that.
    The important thing to recognize is that a lot of the 
training that we do for the warfight overseas, with the dual-
use equipment and the dual capabilities, mirrors for the 
homeland. So we get, as kind of a byproduct of our training 
line for the Air Force, to train for domestic operations in 
some of those core functions.
    But there are some differences, and I talked about our air 
medical evacuation folks. Ninety-four percent of that 
capability in the Guard and the Reserve. And we are very good 
at getting soldiers, sailors, airmen and marines out of tight 
spots, taking care of them in that golden hour, getting them 
the health care they need, transporting to Landstuhl and back 
here for treatment.
    But when we get into a Katrina or an Irene, where we are 
transporting elderly geriatric patients or we might be 
transporting, you know, birth incubator-type youngsters out of 
harm's way, it takes a special type of training. That is just 
one example. We don't have a funding line for that.
    So we are working with the Air Force. I see an increasing 
recognition of the importance of that, but we are not quite 
there yet.
    Ms. Bordallo. All right. General, just one last question. 
Commentary recently, from General Schwartz and Secretary 
Donley, seemed to indicate that core mission sets for the 
Active, the Reserve and the Guard Components will be 
transferred in the future because of budget limitations, when 
they are addressed.
    Can we expect to see the Air Guard have a future role in 
ISR [intelligence, surveillance, reconnaissance] and long-range 
strike missions?
    General Wyatt. I think it makes perfect sense, Madam 
Congressman, for that to happen. When you talk about the cost 
of being able to provide those capabilities, my answer to that 
would be yes in both arenas.
    Ms. Bordallo. Very good.
    And I just want to close, Mr. Chairman, by saying that you 
have my full support--the Air Guard, the Army Guard and the 
Reserves. Thank you very much.
    Mr. Forbes. We thank the ranking member for her questions.
    Once again, thank all of you gentlemen. I think you can 
tell by the participation of this committee how much they care 
about what you are doing and want to be a part of it. We just 
want to once again thank you, and the men and women who serve 
under you, for the great job they do in defending our country.
    And with that, we are dismissed.
    [Whereupon, at 3:00 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                           September 21, 2011

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 21, 2011

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 21, 2011

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 21, 2011

=======================================================================
      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. REYES

    General Wyatt. The Air National Guard (ANG) is currently deploying 
Airmen in several duty statuses, which affords our Airmen different 
levels of predictability for future deployments. In the mobilization 
(non-volunteers) process, the units identified to be activated are 
notified in a two-year planning document. This gives the units two 
years of predictability, enabling them to discuss with unit members the 
possibility of future mobilization deployments. The individual members 
which are specifically identified for mobilization are notified of 
their pending activation at approximately 330 days out from the 
mobilization start date. This gives the member approximately 330 days 
to initially notify their employers of the pending activation. The 
member will receive orders in hand 180 days from the mobilization start 
date, giving the member and their employer an official document 
indicating the member will be placed on non-voluntary mobilization 
orders. ANG members that are placed on mobilization orders are also 
given a means of future predictability by means of AF Mobilization 
Business Rules. These rules guarantee a member a minimum of one year 
dwell, time before they can be mobilized again, after being placed on 
mobilization orders. These rules also guarantee the member a minimum 
dwell period based off the total mobilization time period. A typical 
179-day deployment will give the member the predictability that they 
will not be mobilized again for another 1105 days.
    Not all ANG Airmen are receiving the early notification as outlined 
above. The predictability afforded our Airmen is hindered when the 
planning objectives of a deployment are changed or cancelled. Examples 
would be when an Aviation KC-135 mobilization plan is altered due to 
the changing number of requirements, or the start dates of the 
deployments changing. If the requirements are reduced, ANG Airmen that 
were planning on deploying, some of whom may have already notified 
their employer, no longer are required to be activated. As activation 
dates change, the member must repeatedly coordinate with their employer 
their expected date of departure from their job.
    Other ANG members are not receiving the early notification 
mentioned above because of ``Emergent'' requirements needing to be 
filled in a relatively short period of time. These ANG Airmen are 
receiving notification of their deployment 30-90 days before the 
deployment start date. There is no way of giving ANG Airmen 
predictability in this case, because of the nature of ``emergent'' 
needs.
    ANG members that are deploying on a volunteer duty status are also 
afforded approximately 330 days of predictability. The process 
established for volunteerism outlines a Projected Participation Plan 
which accounts for the members to volunteer for activation 11 months 
before the deployment date. These members are receiving orders for 
their employers 210 days before the activation start date.
    The majority of ANG Airmen who are volunteering to be activated are 
filling ``help-wanted'' requirements. These ANG Airmen are volunteering 
to fill Active Component shortfalls, sometimes with as little as two 
weeks' notice before the activation start date. On the average, the 
notification time for these volunteers is approximately 90 days before 
the activation start date. [See page 24.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 21, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. What are some examples of the impact to training of O&M 
funding reductions?
    General Stultz. The Army Reserve is presently not funded to train 
for full-spectrum combat and Counter Insurgency (COIN) operations--two 
of the most likely requirements posed by the threats in the next 
decade. The O&M funding level currently supports training proficiency 
at the platoon level. The following are examples of the impacts of O&M 
funding reductions:

    1.  Maintenance on vehicles and equipment will be deferred. This 
could significantly impact the readiness of older equipment that 
already requires intensive levels of maintenance.
    2.  Supply purchases will be scaled back.
    3.  Repair part purchases will be reduced allowing only the highest 
priority items to be ordered.
    4.  Shipment of equipment and travel of Soldiers to training events 
will be curtailed.
    5.  Building renovations will be delayed or cancelled.
    6.  Base operations service levels will be reduced at the four Army 
Reserve installations. For example, trash may be picked up less 
frequently and grass cutting could be reduced.
    7.  Soldiers will only be trained to proficiency below the platoon 
level. This will affect unit performance on deployments and other 
operational missions.

    Mr. Forbes. How are you adapting to the $73 million reduction in FY 
2011? What challenges would you experience should additional cuts be 
levied against you?
    General Stultz. The reduction in Operations and Maintenance (O&M) 
funding in FY11 impacted training and base operations. Reduced 
Operations Tempo (OPTEMPO) funding forced the Army Reserve to curtail 
year-end maintenance operations, supply purchases, and travel. The 
decrement to base operations funding resulted in postponement of two 
major building renovations and reduction of service levels provided at 
Army Reserve installations. If additional cuts to O&M are levied, the 
Army Reserve will be challenged to adequately train its Soldiers and to 
fund the installations that support the Army Reserve training base. 
More maintenance of equipment will have to be deferred, supply 
purchases will be cut back, and travel and shipment of personnel and 
equipment to training exercises and other key events will be reduced.
    Mr. Forbes. What barriers continue to slow or prevent the 
transition from a strategic force to an operational force? And what 
would be the impact on the Army Reserve if you had to go back to the 
``strategic reserve'' model of training and deployments?
    General Stultz. The prevailing barriers that continue to impede our 
transition from a strategic force to an operational force are funding 
and access to reserve personnel.
    While fighting in Iraq and Afghanistan over the last 10 years, the 
operational reserve has been funded through the use of OCO dollars. 
With the reduction of OCO funds, dollars must be programmed into the 
base budget in order to maintain an operational reserve.
    If costs to sustain readiness of the RC are not migrated into the 
base budget, what will remain post-OCO are the statutory 15 days of 
annual training and 48 unit training assemblies--resourcing levels we 
know will reduce the Army's operational depth--and RC readiness in 
particular. This strategic Reserve level of funding will prevent us 
from building a level of readiness in ARFORGEN to adequately meet the 
Army's contingency needs. Extended post-mobilization, pre-deployment 
training periods will again be required to prepare RC units for 
deployment.
    For the Army Reserve to continue as an Operational Force the Army 
needs to have access to us. Currently, authority to use Army Reserve 
forces falls within two areas: Annual Training and mobilization and 
revisions to existing mobilization. However, ``Assured Access'' to the 
Army Reserve for ``Non-Emergency'', and ``Steady-State Security 
Cooperation Missions'' requires changes to current legislation and the 
language in the current Senate Bill is a big step in the right 
direction. By giving the Service Secretary Authority, we can take full 
advantage of the hard-won operational experience of our Army Reserve 
Soldiers and sustain that experience through predictable regular use. 
The Army is dependent on the Army Reserve as mission ``enablers'' that 
are critical when generating and sustaining theater forces. This is a 
fully integrated total Army. USAR enablers provide a best value 
capability to the nation. Changes to legislation are critical to the 
national defense of our nation as we leave Iraq and Afghanistan and 
shift our focus to preventing conflict in the future. Combatant 
Commands are asking the Army for engineer, medical and logistics 
capability for theater security cooperation missions--all capabilities 
that exist primarily in the Reserve Component. This isn't a matter of 
back filling the Army. We are uniquely capable of responding to 
immediate global requirements across the full spectrum of operations. 
Security Cooperation and Capacity-Building Partnerships present 
opportunities to draw from the unparalleled experience and training 
levels of an operational force. The Army Reserve must remain an 
enduring operational force within the Total Army. If the Army Reserve 
had to go back to a strategic reserve, it would be very detrimental to 
the Army. The Army Reserve is a crucial element of the Army's overall 
deployable strength and war fighting team. We provide support units and 
specific functions integral to the operational force. Army Reserve 
enablers provide cyclical capability across the Army Force Generation 
(ARFORGEN) model, including the flexibility to surge forces. This 
contribution is particularly important if the Army encounters security 
demands and global commitments that exceed the steady-state capacity of 
supply-based ARFORGEN.
    Today and in the future the Army will require recurrent, assured 
and predictable access to the RC to meet operational requirements as 
requirements increase for Army forces to conduct overseas engagement 
activities. This can best be accomplished through leveraging an 
Operational Reserve.
    It is essential that the Army sustain the increased levels of RC 
readiness and availability achieved since 2001. America's enemies have 
demonstrated both resiliency and adaptability. Against such an enemy, 
America's Army must be able to sustain steady state engagement and be 
prepared to surge a sustained response to the unexpected. Operational 
depth and fiscal advantages make an operational reserve force essential 
to meeting this challenge. Our Soldiers are a national treasure that 
must continue to be used in a meaningful way or we will lose them, and 
we simply cannot afford that as a nation.
    Mr. Forbes. What are some examples of the impact to training of O&M 
funding reductions?
    General Wyatt. The overall impact of O&M funding reductions has 
been minimal on the Air National Guard's (ANG) Non-Prior Service 
Training, Formal Training, & Flying Training Programs because 99 
percent of our formal schools training dollars are resourced through 
Military Personnel Appropriations funding. Only one of these three 
programs, the ANG Formal Training Program, has O&M funding attached to 
it ($1.135M in FY12 O&M), which funds civilian instructor personnel at 
the ANG's Training Education Center and Academy of Military Science, 
and provides administrative supplies/equipment for these two training 
sites.
    However, O&M reductions can impact day-to-day training at the unit 
level by reducing flying hours, Dual Status Military Technician pay, 
supplies and equipment, travel, and facilities. The impact of these 
unit level reductions could result in pilots not retaining currency, 
inability to maintain mission capable aircraft, and the inability to 
provide training for our maintenance and a host of support personnel.
    Mr. Forbes. How are you adapting to the $73 million reduction in FY 
2011? What challenges would you experience should additional cuts be 
levied against you?
    General Wyatt. While the ANG did not take a reduction in FY2011, 
additional cuts beyond those scheduled through the President's Budget 
submission for FY12, depending on the depth, could seriously impact our 
ability to organize, train, and equip our troops in preparing for 
domestic and federal operations. As the ANG is already a lean 
organization, further reductions could impact our ability to induct our 
aircraft for depot maintenance, create shortfalls in funds utilized by 
the unit commanders to effect training, and/or reduce our flying hour 
and civilian pay programs.
    Mr. Forbes. NORAD's ASA and Operation Noble Eagle report stated 
that the National Guard Bureau traditionally runs a deficit in 
execution-year funding for the ASA mission. To what extent is the Guard 
experiencing cost overruns while conducting ASA operations? What are 
the underlying causes for these overruns? What, if any, impact do these 
cost overruns have on the Guard's other missions? What impact do 
continuing resolutions have on your execution of funding?
    General Wyatt. The ANG coordinated response to the NORAD ASA (now 
referred to as Aerospace Control Alert, or ACA) and ONE report 
indicated the ANG continually runs a deficit in execution-year funding. 
This deficit, while not always the same amount, was approximately $4.0M 
dollars per year over the past two to three years. This is caused by 
unforeseen changes in requirements that the COCOM must react to in 
mission. A recent example is the hurricane, which prompted significant 
movement in locations due to evacuation, which in turn prompted 
airborne coverage over certain areas. Also, runway repairs and 
closures, inspection failures, backfills, and facility upgrades that 
drive re-locations, all incur additional costs. Air Combat Command 
contributes Military Personal Appropriations day funds when they are 
available. However often these funds are not available and the ANG is 
ultimately responsible.
    This impacts the ANG's ability to fund their training requirements. 
The Active Duty Operations Support (ADOS) coding of the funds utilized 
for the ACA mission is the same as our Special Training (ST) Days fund. 
Therefore, the ANG ``assumes financial risk'' in their ST Day accounts 
to pay for these deviations from the program. The ANG must limit 
exercise or individual unit training funding from this account to 
provide the funds to the ACA mission. Additionally, even if the funding 
is repaid at the end of the fiscal year, the opportunity to attend the 
exercise or specific event has often already passed. Hence, there is a 
financial cost when the funds are not repaid and an opportunity cost 
involved even if the funds are repaid.
    The continuing resolution also impacts the ANG's ability to provide 
training funds. Approximately 4 of every 70 personnel at an ACA unit 
are funded through the ADOS funding line. During a continuing 
resolution, the ANG is permitted to commit a percentage of their funds 
that equates to a portion of the fiscal year that the budget is 
approved. A first quarter continuing resolution allows the ANG to spend 
25% of the previous years' funding. However, for the ACA mission, it is 
not practical to do such time limited funding. Therefore, the ANG will 
maximize the timeframe the ACA mission personnel are funded, which in 
turn decreases the amount of funds available for the other items. Since 
the number of pilots doing the mission on ADOS funding is small, the 
ANG can place these limited individual on 365 day orders and use the 
remaining money to fund all the other items for a smaller amount of 
time (possibly 70 days). The total amount utilized is within the 
continuing resolution amount (25% of the year) but the money spending 
is now unevenly spread to ensure the ACA mission does not suffer from 
the ``stop and go'' funding.
    Mr. Forbes. Both the Army and Air National Guard are divesting 
fixed-wing airframes. What impact will the loss of airframes have on 
the National Guard's capability to conduct routine domestic operations 
and catastrophic incidents today and in the future?
    General Wyatt. Since 2005, and with current programmed reductions 
in FY11 and FY12, the Air National Guard will have lost 22% of its C-
130 fleet, from 226 aircraft down to 175. Programmed changes to 
domestic airlift could impact successful completion of current and 
future domestic operations missions. In addition, mission requirements 
and demands routinely levied on the NG are difficult to codify as to 
which missions are requirements and which are demands. The NG has 
requirements that are federally recognized, defined by joint and 
service doctrine and demands only defined by National Guard Regulation. 
A New Madrid Earthquake scenario could create an estimated need of 1000 
C-130 sorties for aero-medical evacuation alone. This is in addition to 
moving our CBRN Enterprises, supplies and equipment. National Guard 
Aviation assets currently available to supply major military support to 
civilian authorities are stressed to meet all emergency response 
requirements and scenarios.
    Concerns that these programmatic decisions may have degraded NG 
aviation capabilities to adequately support Homeland Defense/Defense 
Support to Civil Authorities missions prompted the Chief, National 
Guard Bureau to request a Capabilities Based Assessment to analyze the 
National Guard aviation capability and its support for Domestic 
Operations. Once the Capabilities Based Assessment is complete, the 
National Guard should be able to provide a clearer picture of the 
National Guard's capability to support Domestic Operations.
    Mr. Forbes. What are some examples of the impact to training of O&M 
funding reductions?
    General Carpenter. Reductions to base training funds will impact 
the ARNGs ability to sustain Individual/Crew/Squad levels of readiness 
by reducing training events such as Combat Training Centers, inactive 
duty training (drill) and Annual Training opportunities. Current O&M 
funding level provides Individual/Crew/Squad levels of readiness. Units 
preparing for mobilization must report to their mobilization station at 
or above platoon level readiness.
    Additional resources provided through Overseas Contingency 
Operations (OCO) funding enables the ARNG to meet readiness 
requirements of deploying units. These additional OCO funds typically 
prepare deploying ARNG units to achieve Platoon level of proficiency. 
Upon full mobilization, ARNG units conduct additional training in order 
to achieve Company level of proficiency. Training conducted under post-
mobilization and prior to and during deployment is funded through Army 
Active Component OCO funds.
    Mr. Forbes. How are you adapting to the $73 million reduction in FY 
2011? What challenges would you experience should additional cuts be 
levied against you?
    General Carpenter. Army National Guard (ARNG) absorbed $73 million 
in Congressional reductions from Operations and Maintenance 
Appropriations ($42 million spread across multiple Operating Forces 
funding accounts) and Administrative Support ($31 million). The 
Operating force programs most impacted were Sustainment Restoration and 
Modernization (SRM). Due to this reduction, the ARNG pushed a number of 
SRM projects into future fiscal years. Our force was able to absorb 
much of the Administrative Support budget reduction from efficiencies 
gained in recruiting and retention advertising.
    Continued annual funding cuts force the ARNG to regularly postpone 
SRM projects into fiscal out-years. The shift to an Operational Force 
structure/Army Force Generation Model has shown the ARNG to be more 
than capable of successfully accomplishing our Constitutionally-
mandated missions both here and abroad. However, the increased usage 
levels our facilities must now meet to ensure our future mission 
success equates with increased funding for proper maintenance. Large 
reductions in budget out years will directly--and negatively--impact 
Air and Ground operations tempo and training for the ARNG.
    Mr. Forbes. Both the Army and Air National Guard are divesting 
fixed-wing airframes. What impact will the loss of airframes have on 
the National Guard's capability to conduct routine domestic operations 
and catastrophic incidents today and in the future?
    General Carpenter. The current Army plan reduces the number of Army 
National Guard (ARNG) Fixed Wing (FW) aircraft available for domestic 
operations from 114 aircraft down to 64, or, potentially as low as 48 
aircraft. This decrement includes the divestiture of 42 C-23 Sherpa 
aircraft. The current Army approach to domestic FW requirements is a 
derivative approach: the ARNG utilizes ARNG FW assets not deployed in 
federal service. With the Air National Guard (ANG) fielding C-27J 
aircraft that replace ARNG C-23s, ANG C-27J deployments and extensive 
new equipment training requirements will likely limit the availability 
of these assets for routine ARNG logistical support requirements and 
Army Service-specific missions. Loss of airframes--coupled with reduced 
access to fixed wing capabilities--increases the concern that the ARNG 
will fall short of needed fixed wing capabilities for future domestic 
operations and catastrophic incidents.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. Given the high ops tempo of your Joint STARS Wing, how 
well is the system doing in supporting increased COCOM requirements, 
and what stresses are you seeing on the system?
    General Wyatt. JSTARS is providing exceptional support to increased 
global requirements. To date, JSTARS has flown over 77K combat hours 
and has been continuously deployed for more than 3.6K days. In FY11, 
JSTARS supported five COCOMs, the highest level of support in the 
history of the weapons system. The Active Component is maintaining an 
average 1:2 dwell rate; ANG personnel are maintaining an average 
equivalent dwell rate of 1:4 through volunteerism.
    Increased Operational Tempo continues to stress JSTARS personnel 
and the E-8C fleet. The E-8C fleet remains postured to meet COCOM 
requirements, but does so at a cost to home station operations. Surge 
operations in support of increased COCOM requirements directly affect 
the availability of resources for the co-located JSTARS FTU. In FY11, 
high levels of support for deployed operations caused JSTARS to fall 
short of the Air Combat Command standard for Mission Capable rate of 
78% by 0.4%. There were also numerous shortfalls in key maintenance 
metrics, driven by engines (top contributor to Non-Mission Capable 
Rate) and the Oil Pressure Indicating System (number one cause of air 
aborts in theater).
    Mr. Scott. Given the small size and increasing demands on Joint 
STARS fleet, is the USAF doing all it can to ensure sufficient Joint 
STARS are operationally ready and available to meet the demands?
    General Wyatt. COCOM requirements significantly exceed JSTARS' 
sourcing capacity. The 116 Air Control Wing and 461 Air Control Wing 
deploy forces at the maximum sustained level and have dynamically 
conducted surge operations in support of increased COCOM requirements. 
Improvements to operational readiness and availability can be made by 
addressing personnel and fleet availability issues including:

    <bullet>  Personnel
        <bullet>  Taskings in support of the MC-12 program and Task 
        Force Torch directly increase the dwell rates of JSTARS 
        Airborne Mission System Specialists and Airborne Battle 
        Management Specialists enlisted aircrew positions to almost 
        1:1. These requirements negatively impact the OPTEMPO for both 
        Active Component and ANG aircrew members. Reducing or removing 
        these additional taskings would improve OPTEMPO and raise 
        overall aircrew readiness levels.
    <bullet>  Fleet availability
        <bullet>  Disposition of Aircraft -0597: This aircraft has been 
        in non-flyable condition at the CENTCOM Forward Operating 
        Location since 13 Mar 2009 following a fuel system related 
        Class A Mishap. The repair of aircraft -0597 would preserve a 
        critical fleet asset and the associated manpower and ensure 
        JSTARS support to COCOM requirements is not degraded by 17%. 
        However, repair of this aircraft is not currently funded.
        <bullet>  Aircraft -0416 (flight deck proficiency trainer): 
        This aircraft has significant structural and corrosion issues 
        and the ability to return the aircraft to service is currently 
        being assessed. It is utilized at maximum capacity and handles 
        61% of JSTARS annual flight deck proficiency training 
        requirements. Loss of this aircraft increases the homestation 
        requirement, thereby reducing resources available for OCO 
        support.
        <bullet>  E-8C engines are the single highest contributor to 
        fleet-wide non-mission capable rates. The re-engining program 
        is not funded past the development stage.

    Mr. Scott. What upgrades are being considered to improve Joint 
STARS performance and readiness to better support the Joint STARS 
crews, maintainers, and users of the Joint STARS information?
    General Wyatt. Air Combat Command (ACC) is the lead command 
responsible for planning and budgeting for JSTARS modernization. The 
National Guard Bureau is responsible for JSTARS sustainment.
    ACC's currently planned modernization upgrades include:

    1.  Enhanced Land Maritime Mode: provides JSTARS the capability to 
accurately track, target, and engage moving land and maritime targets 
using GPS-guided weapons from other aircraft.
    2.  Multi-Functional Information Distribution System Joint Tactical 
Radio System-Joint Tactical Information Distribution System: datalink 
replacement for diminishing manufacturing sources.
    3.  Force XXI Battle Command, Brigade and Below ``Blue Force 
Tracker''. A scheduled upgrade of the system will render JSTARS' 
version obsolete. This upgrade ensures continued access to US Army and 
US Marine Corps tactical datalink. Phase 1 is funded. Phases 2 and 3, 
which enable access to new secure system, are currently unfunded.
    4.  Prime Mission Equipment/Diminishing Manufacturing Source: 
replaces current onboard mission equipment, such as the Radar Airborne 
Signal Processor and Clipper Operating Work Stations computers, that 
have become obsolete from the manufacturing sources.
    5.  JSTARS Radar Modernization: radar improvement demonstration to 
improve radar area rate coverage; provides the ability to detect, track 
and identify both stationary and moving ground vehicles. Funded through 
a Congressional mark in FY08/09. Demo will continue through FY12.

    The following upgrades to JSTARS are being considered by ACC but 
are not currently funded:

    1.  Organic Combat Identification: provides the ability to 
independently identify ground targets, removing reliance upon other 
traditional and non-traditional Intelligence, Surveillance, 
Reconnaissance sensors.
    2.  Diminishing Manufacturing Source Replacement of Avionics for 
Global Operations and Navigation: system upgrade is required to 
maintain access to global navigation.
    3.  Intelligence Broadcast Service: would provide access to beyond 
line of sight self-defense information; current system is obsolete.
    4.  Maintenance and sustainment upgrades: include updates to the 
oil pressure indicator system, fuel flow transmitter, aft thrust 
reverser and E-8C radio system evaluation and adjustment tool.
    5.  JSTARS Network Enabled Weapons Program: allows JSTARS to 
acquire and engage targets using weapons, such as Joint Air to Surface 
Standoff Missile-Air Surface Warfare-Anti-Surface Warfare, from other 
aircraft via a Link 16 communications network.

    Mr. Scott. Do you see an opportunity to provide additional support 
to NORTHCOM and SOUTHCOM as a result of deblending the Joint STARS wing 
into separate Guard and Active wings?
    General Wyatt. The Active Associate organizational structure of 
Team JSTARS between the Air National Guard 116 Air Control Wing and the 
Active Component 461 Air Control Wing does not affect the overall level 
of COCOM support that JSTARS can provide. Organizational changes have 
aligned how the two wings organize, train and equip forces with respect 
to Title 32 and Title 10 authorities. Under the current COCOM taskings, 
JSTARS is able to provide support to NORTHCOM and SOUTHCOM through 
utilization of homestation sorties on a non-interference basis. 
Additional support to these two COCOMs would require a reduction in the 
current CENTCOM and AFRICOM taskings.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PALAZZO
    Mr. Palazzo. Do the Guard and Reserve components feel that it would 
be advantageous to increasing operational readiness capabilities if the 
Guard Bureau were to have the flexibility to use NGRE funding on 
maintenance of training systems?
    General Stultz. From the perspective of the Army Reserve, 
``maintenance of training systems'' is a potential requirement most 
likely appropriate for Operations and Maintenance (O&M) funding. 
Traditionally, National Guard and Reserve Equipment (NGRE) funds 
provided to the AR have been for procurement purposes. Should the 
Congress choose to supplement the President's budget request for the 
purpose of ensuring adequate maintenance of Reserve Component training 
systems, it is our view that this is best done by adding resources to 
the appropriate areas of the O&M appropriation.
    Mr. Palazzo. We are currently looking at passing a CR to continue 
funding the government until the end of the year. When I first came 
into office last January, we passed multiple CRs to keep our government 
functioning because of the failure of the previous Congress to pass the 
annual appropriations bills. Now we are looking at another CR, likely 
followed by an omnibus, that will carry us through. While we were 
working on the CRs we received a great deal of testimony from the DOD 
officials about the problems that CRs cause in their planning process. 
Could you elaborate on the issues you will have to deal with if 
Congress ends up producing another series of CRs? What is the overall 
effect on the readiness of the Guard and Reserve Components?
    General Stultz. There are numerous issues caused by a series of 
CRs. The Army Reserve is reliant on contracts for much of its daily 
operations. Under a CR, many contracts must be incrementally funded 
instead of being fully funded when approved. This creates a significant 
additional workload for the organization that has the contract 
requirement and for the contracting office that is processing the 
action. Additionally, the incremental funding of contracts creates 
uncertainty for all of the vendors that are providing products and 
services to us. Contract bids are valid for 90 days in many cases--when 
the bids cannot be exercised due to funding restrictions under a CR, 
the process must be restarted. MILCON projects are also significantly 
disrupted due to the lack of authority to start new projects.
    A CR also causes problems for the Army Reserve offices that manage 
and that execute funds. Each additional CR period requires calculation 
of spending authority to be distributed and distribution of the 
approved amounts to all organizations falling under each office that 
manages funds. This is a tremendous administrative burden that would 
not be necessary if appropriations were received at the beginning of a 
fiscal year. Also, trying to get be good fiscal stewards in an 
environment of uncertainty, absent total funding, commands may not take 
advantage of all training opportunities available.
    The overall effect on the readiness of the Army Reserve is limited, 
but could become more significant as CRs become the norm year after 
year. We are able to fund and complete training under a CR even though 
there is a dramatic increase in administrative workload. The most 
significant impact is likely the uncertainty generated by a series of 
CRs year after year. Soldiers that are deployed and already under 
stress are burdened by the thought that a government shutdown or delay 
in funding could impact their pay and their families back at home. The 
Army Reserve financial workforce is forced to set aside the normal 
analysis that could lead to more efficient operations to complete the 
repeated distribution of funds required under a CR or series of CRs.
    Mr. Palazzo. Do the Guard and Reserve components feel that it would 
be advantageous to increasing operational readiness capabilities if the 
Guard Bureau were to have the flexibility to use NGRE funding on 
maintenance of training systems?
    General Wyatt. No. The ANG does not feel that expanding the uses of 
NGREA to include maintenance of training systems would be advantageous 
to increasing operational readiness capabilities.
    While NGREA is used to purchase equipment, fielding of this 
equipment drives a sustainment bill that includes daily maintenance, 
training, and support. The NGREA process includes identification of 
these issues, funding requirements and submissions into the ANG POM.
    Changing the purposes for which NGREA can be used would be counter 
to the current laws and regulations governing the uses of the money and 
would divert funds away from critical equipping and modernizing 
efforts.
    NGREA is a procurement appropriation, while maintenance on existing 
systems of any kind, to include trainers, is currently funded with 
Operations and Maintenance funds, one year funding. Expanding uses of 
NGREA across ``purposes'' is a violation of current law. Granting an 
exception would legally complicate what heretofore has been a clearly 
defined set of laws and policies.
    More importantly, allowing NGREA to be used for O&M would detract 
from the intended purpose of NGREA: to equip and modernize the ANG in 
areas where ANG equipment lags the active component or in mission areas 
such as domestic operations where the active component does not provide 
funding.
    Mr. Palazzo. General Wyatt, as you know, the Air Force announced 
that it would beddown four operational C-27J aircraft and two 
additional training aircraft at Key Field Air Guard Station in 
Meridian, MS. Unfortunately, the documented permanent manning positions 
required to stand up this operational mission has yet to be provided 
and the base has had to rely on temporary manning slots for the past 
two fiscal years. Do you foresee NGB providing Key Field with the 
needed permanent positions later this year? If not, when do you expect 
these positions to be provided? Also, this unit has been asked to lean 
forward in preparation for the training piece of this mission. Can you 
tell me if that manning will be provided on time?
    General Wyatt. NGB understands the resourcing challenges for 
Mississippi this fiscal year. Despite our desire to provide the state 
clarity on permanent funding, due to the lack of an FY12 approved 
appropriations bill and the current H.J. Res 79, Continuing Resolution 
to fund the government through 18 November 11, NGB is unable to provide 
further information on the timeline of receipt of permanent funding. 
Every effort is being made by the NGB staff to communicate the current 
status of the budget and how it affects the individual units. NGB is 
standing ready to update the Manpower Resource Vouchers to reflect 
programmatic funding as soon as the budget is passed or the Continuing 
Resolution allows. Currently the Manpower Resource Vouchers indicate 
that the fulltime positions will remain capped at FY11 levels and show 
projected funding until 1 April 12. To alleviate personnel impacts, Key 
Field Air Guard Station currently has FY11 resourcing extended through 
FY12 with execution year funds.
    Mr. Palazzo. General Wyatt, as a Congressman representing a 
district that is especially prone to natural disasters such as 
hurricanes, I anticipate the capabilities of the C-27J will be very 
important to my district and others like it across the country. Do you 
foresee budget cuts affecting this program?
    General Wyatt. The C-27J was designed by the Army to deliver Time 
Sensitive/Mission Critical personnel and equipment to strategic points 
across the battlefield. It is currently serving and meeting that 
expectation overseas at this time. The C-27J can provide that same time 
critical airlift for states and first responders during national or 
state emergencies. The aircraft is right-sized to deliver tailored or 
specialized response and support assets to those areas impacted by an 
emergency. The C-27J program is now completing its Low-Rate Initial 
Production, and delivering the first 21 aircraft to the first four of 
the seven designated Wings. The Systems Program Office is presently 
awaiting its Full Rate Production decision from the AF and Office of 
the Secretary of Defense. However, the decision has been delayed due in 
part to present state of the budget. This will likely impact delivery 
of final 17 aircraft to final three Wings, but will not deter the NGB 
from supporting this mission. Given the lack of an FY12 approved 
appropriations bill and the current H.J. Res 79, Continuing Resolution 
to fund the government through 18 November 11, NGB is unable to provide 
further information on any foreseeable budget cuts and what impacts, if 
any, would be forced upon this program. NGB staff is committed to this 
program and continues to aggressively train, equip, and field the C-27J 
in order to provide its defined capability not only to the warfighter 
but also to our states for domestic operations.
    Mr. Palazzo. Do the Guard and Reserve components feel that it would 
be advantageous to increasing operational readiness capabilities if the 
Guard Bureau were to have the flexibility to use NGRE funding on 
maintenance of training systems?
    General Wyatt. The ANG does not feel that expanding the uses of 
NGREA to include maintenance of training systems would be advantageous 
to increasing operational readiness capabilities.
    While NGREA is used to purchase equipment, which drives a 
sustainment bill to include daily maintenance, training, and support. 
The NGREA process allows the ANG to identify these funding requirements 
and plan for future budget submissions.
    Changing the purposes for which NGREA can be used would be counter 
to the current laws and regulations governing the uses of the money and 
would divert funds away from critical equipping and modernizing 
efforts.
    NGREA is a procurement appropriation similar in purpose to the 
three year AF 3010 or 3080 funding. Maintenance on existing systems of 
any kind, to include trainers, is currently funded with Operations and 
Maintenance funds, one year funding. Expanding uses of NGREA across 
``purposes'' is a violation of current law. Granting an exception would 
legally complicate what heretofore has been a clearly defined set of 
laws and policies.
    More importantly, allowing NGREA to be used for O&M would detract 
from the intended purpose of NGREA: to equip and modernize the ANG in 
areas where ANG equipment lags the active component or in mission areas 
such as domestic operations where the active component does not provide 
funding.
    Mr. Palazzo. We are currently looking at passing a CR to continue 
funding the government until the end of the year. When I first came 
into office last January, we passed multiple CRs to keep our government 
functioning because of the failure of the previous Congress to pass the 
annual appropriations bills. Now we are looking at another CR, likely 
followed by an omnibus, that will carry us through. While we were 
working on the CRs we received a great deal of testimony from the DOD 
officials about the problems that CRs cause in their planning process. 
Could you elaborate on the issues you will have to deal with if 
Congress ends up producing another series of CRs? What is the overall 
effect on the readiness of the Guard and Reserve Components?
    General Wyatt. Overall, the productivity and economic costs 
associated with CRs are not in our best interest, however the effects 
of the CR depends on the level of funding, and length of the 
authorities. A CR that keeps funding at current or expected levels for 
greater periods of time tends to reduce negative impacts. Inversely, we 
have begun operating in FY12 under a reduced authority for a short 
period, which is causing all units across the ANG to inefficiently 
manage their daily obligation rates. There are inherent costs 
associated with short term funding cycles, such as the loss of training 
opportunities and increased expenses associated with the inability to 
negotiate longer term contracts for services and supplies. Additional 
reductions beyond those scheduled through the President's Budget 
submission for FY12, depending on the depth, could seriously impact our 
readiness. Specifically, further reductions could impact our ability to 
induct our aircraft for depot maintenance, create shortfalls in funds 
utilized by the unit commanders to accomplish training, and/or reduce 
our flying hour and civilian pay programs.
    Mr. Palazzo. Many of my colleagues are familiar with these efforts 
and I assume you are too but I would like to know your thoughts on the 
matter. Earlier this year, in the House Defense Authorization Bill a 
provision was included that would include a seat of the Joint Chiefs 
for the National Guard. It is my understanding that a similar provision 
is being worked on for the Senate version of the bill. Could you give 
me your thoughts on the necessity of a National Guard Representative on 
the Joint Chiefs of Staff? We have seen a largely increased role for 
the National Guard during this past decade, but do you believe that 
another 10 years down the road a seat with the Joint Chiefs will be 
necessary or warranted?
    General Wyatt. During the 10 Nov Senate Armed Services Committee 
hearing, General McKinley, Chief of the National Guard Bureau stated:

          It is now in the best interest of the American people for the 
        Chief of the National Guard to be made a full member of the 
        Joint Chiefs of Staff . . . Only full Joint Chiefs of Staff 
        membership for the Chief of the National Guard Bureau will 
        ensure that the responsibilities and capabilities of the non-
        federalized National Guard are considered in a planned and 
        deliberate manner that is not based upon ad hoc or personal 
        relationships, but is, instead, firmly rooted in the law and 
        the national strategy.
          The domestic mission of the National Guard must be taken into 
        account when making military contingency plans, when allocating 
        scarce readiness resources, and when advising the President, 
        the Secretary of Defense, the National Security Council, and 
        the Homeland Security Council on strategies and contingency 
        response options. . . .
          Adding the Chief of the National Guard Bureau to the JCS, in 
        my opinion, would ensure that in the post-9/11 security 
        environment the National Guard's non-federalized role in 
        homeland defense and civil support missions will be fully 
        represented in all JCS deliberations. This would not detract, 
        in my opinion, in any way from its other critical JCS 
        functions.

    Mr. Palazzo. Do the Guard and Reserve components feel that it would 
be advantageous to increasing operational readiness capabilities if the 
Guard Bureau were to have the flexibility to use NGRE funding on 
maintenance of training systems?
    General Carpenter. As defined in Department of Defense Financial 
Management Regulation, National Guard and Reserve Equipment Account 
procurement funds should not be used for sustainment and maintenance 
expenses. These funds are not programmed--they are annually 
appropriated--and are for procurement appropriations. An increase in 
National Guard Operations and Maintenance funding would directly and 
positively impact the maintenance and sustainment of ARNG training 
systems, as well as provide the flexibility of National Guard Bureau to 
focus those funds where most needed.
    Mr. Palazzo. We are currently looking at passing a CR to continue 
funding the government until the end of the year. When I first came 
into office last January, we passed multiple CRs to keep our government 
functioning because of the failure of the previous Congress to pass the 
annual appropriations bills. Now we are looking at another CR, likely 
followed by an omnibus, that will carry us through. While we were 
working on the CRs we received a great deal of testimony from the DOD 
officials about the problems that CRs cause in their planning process. 
Could you elaborate on the issues you will have to deal with if 
Congress ends up producing another series of CRs? What is the overall 
effect on the readiness of the Guard and Reserve Components?
    General Carpenter. When operating under a Continuing Resolution 
(CR), a portion of the budget is withheld from the Army National Guard 
(ARNG) in anticipation of Congressional downward adjustments. This 
process creates uncertainty at the execution level for the ARNG, 
because the States lack a clear picture on their programmatic funding 
for the year. Unplanned requirements directed by the Office of the 
Secretary of Defense or the Executive Branch to the ARNG place 
additional risk to funding. The longer the CR, the greater the level of 
uncertainty, and the greater the number of negative impacts observed at 
the local level to funding obligations and execution.
    Once the Department of Defense (DoD) appropriations bill was 
passed, it took roughly three weeks for Office of Management and 
Budget, DoD, and Department of the Army to complete all the fiscal 
transactions necessary to provide funding to the ARNG. The ARNG 
appropriations were balanced in May, seven months into Fiscal Year 
2011. Due to the severely curtailed budget window, the ARNG was unable 
to execute an 80% obligation rate for its Operations and Maintenance 
appropriation.
    Mr. Palazzo. Many of my colleagues are familiar with these efforts 
and I assume you are too but I would like to know your thoughts on the 
matter. Earlier this year, in the House Defense Authorization Bill a 
provision was included that would include a seat of the Joint Chiefs 
for the National Guard. It is my understanding that a similar provision 
is being worked on for the Senate version of the bill. Could you give 
me your thoughts on the necessity of a National Guard Representative on 
the Joint Chiefs of Staff? We have seen a largely increased role for 
the National Guard during this past decade, but do you believe that 
another 10 years down the road a seat with the Joint Chiefs will be 
necessary or warranted?
    General Carpenter. During the 10 Nov Senate Armed Services 
Committee hearing, General McKinley, Chief of the National Guard Bureau 
stated:

          It is now in the best interest of the American people for the 
        Chief of the National Guard to be made a full member of the 
        Joint Chiefs of Staff. . . . Only full Joint Chiefs of Staff 
        membership for the Chief of the National Guard Bureau will 
        ensure that the responsibilities and capabilities of the non-
        federalized National Guard are considered in a planned and 
        deliberate manner that is not based upon ad hoc or personal 
        relationships, but is, instead, firmly rooted in the law and 
        the national strategy.
          The domestic mission of the National Guard must be taken into 
        account when making military contingency plans, when allocating 
        scarce readiness resources, and when advising the President, 
        the Secretary of Defense, the National Security Council, and 
        the Homeland Security Council on strategies and contingency 
        response options. . . .
          Adding the Chief of the National Guard Bureau to the JCS, in 
        my opinion, would ensure that in the post-9/11 security 
        environment the National Guard's non-federalized role in 
        homeland defense and civil support missions will be fully 
        represented in all JCS deliberations. This would not detract, 
        in my opinion, in any way from its other critical JCS 
        functions.

                                  <all>

</pre></body></html>
